<html>
<title> - THE PROPOSED FISCAL YEAR 2007 BUDGET: ENHANCING PREPAREDNESS FOR FIRST RESPONDERS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                 THE PROPOSED FISCAL YEAR 2007 BUDGET: 
              ENHANCING PREPAREDNESS FOR FIRST RESPONDERS 
=======================================================================
                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                 PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 8, 2006

                               __________

                           Serial No. 109-67

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

36-543 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY



                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Reichert, a Representative in Congress From 
  the State of Washington, and Chairman, Subcommittee on 
  Emergency Preparedness, Science, and Technology................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science, and Technology.............     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    28
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    17
The Honorable Bob Etheridge, a Representative in Congress From 
  the State North Carolina.......................................    23
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    18
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    21

                                Witness

The Honorable George W. Foresman, Under Secretary for 
  Preparedness, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9

                                Appendix

The Honorable George Foresman Responses to Questions.............    41


                 THE PROPOSED FISCAL YEAR 2007 BUDGET:
                    ENHANCING PREPAREDNESS FOR FIRST
                               RESPONDERS

                              ----------                              


                        Wednesday, March 8, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                   Science, and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 311, Cannon House Office Building, Hon. David Reichert 
[chairman of the subcommittee], `presiding.
    Present: Representatives Reichert, Rogers, Pearce, McCaul, 
Dent, Pascrell, Norton, Christensen, Etheridge, and Thompson 
(ex officio).
    Mr. Reichert. Good morning. The Committee on Homeland 
Security Subcommittee on Emergency Preparedness, Science, and 
Technology will come to order. The subcommittee will hear 
testimony today on the administration's proposed budget for 
fiscal year 2007 for the Department of Homeland Security's new 
Directorate of Preparedness.
    I would first like to welcome our witness and thank him for 
taking time out of his busy schedule to be with us today. We 
thank the Honorable George Foresman for being here. We know you 
have a busy schedule. We appreciate you taking time to be here 
with us today. We look forward to your testimony and also to 
your answers to the questions that were posed to you this 
morning.
    This appearance is your first since joining the Department 
of Homeland Security 2 months ago as its first Under Secretary 
for Preparedness. On behalf of my colleagues we are pleased 
that you are here and greatly appreciate your valuable time.
    The purpose of this hearing is to review the 
administration's proposed fiscal year 2007 budget request for 
the Department's new Directorate of Preparedness and its affect 
on the preparedness of our Nation's first responders. Shortly 
after Homeland Security Secretary Chertoff assumed office in 
2005 he launched a top to bottom review of the Department's 
policies, programs and procedures. Secretary Chertoff announced 
the results of this review, referred to as the second stage 
review, or 2SR, in July of 2005, and as a result of that review 
the Secretary realigned the Department's organizational 
structure. The realignment included consolidating all the 
Department's existing preparedness activities and programs, 
including the Office for Domestic Preparedness, the U.S. Fire 
Administration, the Chief Medical Officer and the Office of 
Infrastructure Protection into a new Directorate of 
Preparedness.
    The Directorate's primary responsibility is to build and 
sustain our Nation's preparedness at all levels of government, 
to prevent acts of terrorism and minimize the efforts of 
nonterrorist-related events in the United States, reduce 
America's vulnerability to terrorism, especially those 
involving weapons of mass destruction and enhanced Federal, 
State and local response to acts of terrorism and other 
emergencies, both natural and manmade.
    The Preparedness Directorate, ably led by Under Secretary 
Foresman, is supposed to do these things by identifying, 
assessing and evaluating risks, by funding activities to reduce 
those risks, and by coordinating preparedness activities and 
programs of all levels of government.
    The President's fiscal year 2007 budget request for the 
Preparedness Directorate is approximately $3.4 billion. Some of 
my friends on the other side of the aisle will undoubtedly 
complain that the administration's budget request decreases 
overall spending on first responders from fiscal year 2006 on 
enacted levels. I will not and cannot dispute that fact, but at 
a lower level of spending for certain grant programs should not 
be equated with a lack of commitment to first responders or 
homeland security. Indeed, no other administration in the 
history of our great country has requested more funds for first 
responders. Since September 11, 2001 the administration and 
Congress have made an enormous investment, over 28 billion in 
State, regional and local preparedness programs. Much of this 
funding, however, remains unspent.
    If the President's budget request is combined with yet to 
be awarded funds for 2006 and amounts from prior years that 
State and local governments have not yet obligated, the result 
is that more than 5 billion in funding will be available for 
State and local preparedness activities in fiscal year 2007.
    Until the problems causing these backlogs are resolved, the 
reductions in certain homeland security grants programs 
demonstrate the President's fiscal discipline. So rather than 
merely continuing to increase Federal funding, the 
administration's proposed budget attempts to resolve this 
problem by reforming the grant making system, consistent with 
the reform contained in H.R. 1544, the Faster and Smarter 
Funding for First Responders Act. The administration intends to 
allocate the vast majority of Federal preparedness grants on 
the basis of risk and need and to assure that States and local 
governments use such funding to achieve minimum baseline levels 
of preparedness in accordance with the national preparedness 
guidance.
    It is also important to note that the administration's 
budget request substantially increases funding for certain 
grant programs. For example, the President's budget includes an 
over $80 million increase for the Urban Area Security 
Initiative, a $214 million increase in grant programs dedicated 
to critical infrastructure protection, and $98 million of 
increase for the State homeland security grant program.
    The budget request for the Preparedness Directorate also 
proposes funding increases for the Chief Medical Officer, U.S. 
Fire Administration and the Office of National Capital Region 
Coordination and establishes a new $50 million program for the 
so-called National Preparedness Integration Program to help 
States and local governments improve preparedness for 
catastrophic events.
    As a former first responders for over 33 years and a former 
sheriff of King County in Seattle, Washington, I am committed 
to our Nation's public safety and homeland security. Those here 
who know me know of my passion for the COPS program. While our 
committee has no jurisdiction over the COPS office, I am 
opposed to the proposed reduction for it and continue to 
support the grant programs in COPS. COPS allow funding for 
personnel at the local level.
    I have no doubt that my good friend from New Jersey will 
discuss his opposition to the proposed reductions in Fire Act 
grants and the SAFER program. I share his support for these 
specific grant programs as well as the desire to see them 
adequately funded. Nevertheless, while a proposed budget is not 
perfect, I believe it includes many important new initiatives 
that will make the Preparedness Directorate a success.
    Despite my concern about some of the proposed reductions, I 
do not believe the President's budget request for the 
Preparedness Directorate will harm first responders of our 
Nation's security. If it did, I would not support it. As the 
saying goes, once a first responder, always a first responder.
    Under Secretary Foresman, I am eager to hear your 
testimony, especially your vision for the Preparedness 
Directorate, and I am also eager to remain engaged with you as 
we further discuss how to improve our Nation's preparedness.
    The Chair recognizes Mr. Pascrell for his statement.
    Mr. Pascrell. Thank you, Chairman Reichert. I am glad to 
have the opportunity to discuss the fiscal year 2007 request 
for the Department of Homeland Security's Preparedness 
Directorate and potentially find out just what on earth the 
administration was thinking when they put this budget together.
    Now that we have prefaced what I am going to say, you know 
I have the greatest respect for you, Mr. Foresman. Anybody who 
can last 3 years in your department, you are a minor walking 
miracle.
    I understand this is the first time that you have testified 
before Congress since your confirmation this past December. You 
really couldn't have picked a worse time to sit before us, but 
we are here as friends.
    You are well respected in the emergency management and 
first responder community. You have a notable record of public 
service, and I say that sincerely. We all have faith in you, 
faith in your confidence, faith in your passion for the 
responsibilities that fall under your purview. You are not just 
the messenger. But this administration's budget is 
unacceptable.
    I am being very charitable in my comments this morning 
because we have a mixed audience. I don't think for a minute 
that you are happy that your directorate was cut by more than 
$600 million. You have an enormous challenge. To be honest, I 
don't know how the Preparedness Directorate plans to meet its 
critical goals, given the large proposed cuts the President 
wants you to absorb.
    Let us take a look at the facts. The President's budget 
reduces the Emergency Management Performance Grant Program from 
$185 million in 2006 to 170 million in the coming year. This is 
a $15 million cut that places State and local governments in a 
precarious position. They were just in town a few weeks ago. 
The Secretary spoke to the group and everything was wonderful, 
but it is not. EMPG grants are the primary source of Federal 
funding to State and local governments for planning, training, 
exercising, hiring personnel for all facets. This is a fact of 
life.
    Given that the hurricanes of last year exposed serious 
shortfalls in our ability to respond to terrorist attacks and 
natural disasters, why the administration would cut this 
program is beyond me. We are not talking about a lot of money 
here, but it really is symbolic more than anything else of why 
in view of what has happened in 2005, why we would cut this 
budget for the coming year.
    The President's budget cuts the funding for the 
Firefighters Grant Program by nearly 50 percent. I know a 
little bit about this program. When we introduced it in 1999 it 
was finally passed and signed by President Clinton in 2000. It 
had 284 cosponsors of that legislation and crossed the entire 
political spectrum long before 9/11 to respond to basic needs 
of the 32,000 fire departments throughout the United States of 
America, both career and voluntary.
    So by cutting this program from $545 million to $293 
million in fiscal year 2007 is something we need to take a look 
at. The program has proven to be effective in providing local 
fire departments with the tools they need to perform their day-
to-day duties, before 9/11 this bill passed, became the Act, as 
well as enhancing your ability to respond to large disasters.
    This program had applications of up to $3 billion this past 
year and we were only able to respond by $545 million. Why in 
God's name with such urgent needs within these departments are 
we cutting this program?
    I know exactly what the administration attempted to do by 
melding this program with the other disaster programs and the 
terrorist programs so that we will block grant it almost and 
therefore absorb and therefore supposedly save money on the 
backs of first responders. We are talking out of both sides of 
our mouths. The numbers speak for themselves.
    The President has proposed completely eliminating the SAFER 
Program. This was a bipartisan program to respond to the 
staffing needs of the volunteer fire departments in this 
country as well as the career departments. He is going to zero 
it out. The will of the Congress is ignored by the 
administration. We are handmaidens at best. We are playing 
second fiddle at worst.
    Darn it, under the Constitution of the United States we 
have an ability and the right to have something to do with the 
budgets that are submitted by the executive branch of 
government. What has been done to the SAFER Program is 
unconscionable. It is immoral.
    Now given that the National Fire Protection Association has 
reported that two-thirds of America's fire departments do not 
meet the consensus fire service standard for minimum set safe 
staffing levels, why the administration would cut this program 
is beyond me. And if the response is, as some in the 
administration have said, this is not a Federal responsibility, 
then what we should do is do away with all the fire programs 
and do away with all the cop programs and say to local 
municipalities these are your jobs; whether you have the 
wherewith all to do it, do it, find a way to do it anyway. I 
don't know if that is what you are saying, but that is what 
some of the folks in your department are saying.
    The President's budget neglects the needs of local law 
enforcement by once again zeroing out funding for local law 
enforcement terrorism prevention programs, which plays a key 
role in assisting local law enforcement agencies in information 
sharing, threat recognition and mapping, counterterrorism and 
security planning, interoperable communications and terrorist 
interdiction. The program was funded at $385 million in 2006. 
Why the administration would cut this program is beyond me.
    I could go on but I suspect that many of the other cuts in 
this budget, from the National Domestic Preparedness Consortium 
to the Metropolitan Medical Response System will be explored at 
some point during this hearing.
    I want to conclude with this, Mr. Chairman. My hope is that 
as we proceed we will have a serious conversation about why the 
administration year after year tries to impose the most 
egregious cuts and elimination to programs that are designed to 
help our first responders. Thank God there are enough people on 
both sides of the aisle, since neither party is privy to this 
virtue; there is enough people on both sides of the aisle that 
say to the administration this is shared responsibility, this 
is a system of checks and balances according to, I read it 
again this morning, the Constitution of the United States, 
which is still a pretty valuable document.
    I hope that the usual numerical sleights of hand are not 
attempted. I know that the Urban Area Security Initiative got a 
small increase, as did the State Homeland Security Block Grant 
Program, but we all know the small increases do not nearly 
offset all the other cuts elsewhere in the budget.
    So the bottom line is there is a reason why every first 
responder I know, and I know a lot of them, vehemently disagree 
with this budget and I am going to take this budget to every 
part of this country, to both cops and firefighters and explain 
to them what is going on. The shell game is over. This budget 
is not acceptable. Please look at it as dead on arrival.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Pascrell.
    The Chair now recognizes the ranking minority member of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for his statement.
    Mr. Thompson. Thank you very much, Mr. Chairman, ranking 
member. Welcome. This is the first time that you have testified 
before this committee since you have been confirmed. I would 
like to congratulate you on that process as well as your 
commitment to hang in there on the job and help us make America 
safer.
    I am impressed by your background. I have encouraged the 
administration to look at qualified people rather than just 
political cronies, and obviously you are clearly more than 
qualified for the position. So I welcome you at this time.
    That being said, I look at the budget, and just as my 
colleague from New Jersey indicated, it causes us great 
concern. It causes us great concern because when we talk about 
local firefighters and EMTs they look at a $600 million cut in 
this directorate and they say, Mr. Congress, we can't make it 
without that. Why is the Federal Government not helping this 
process, why are they cutting Law Enforcement, Terrorism 
Prevention Program, the Metropolitan Medical Response System, 
the SAFER fire grant, and other programs.
    Then they go on to say well, now that you have created this 
thing called Preparedness Directorate, how does that fit in the 
role of response in the cut since you have separated? We are 
out here in the boondocks and we can't see the need for a 
separation.
    So I think that you have many challenges before you. The 
former FEMA Director, who I don't claim to be an expert, but he 
at least said that with reorganization and the Preparedness 
Directorate being established caused FEMA not to be the robust 
agency that it needed to be. I think you ought to talk a little 
bit about that and how you see that pro or con impact on this 
budget.
    The other thing is my district was impacted by Hurricane 
Katrina. As I look at this budget, many of the deficiencies and 
supposed lessons learned are not addressed in this budget. And 
we need help. We are less than a hundred days away from another 
hurricane season.
    Many members of this committee attended the bipartisan trip 
last week. We will be going back as a committee in about 2 
weeks to the area to look at it. And I think we need to know 
based on experience of Katrina and Rita and this budget whether 
we will be safer as an entity or whether we are just as 
vulnerable as we were during Katrina.
    So, Mr. Under Secretary, I look forward to your testimony 
and I look forward to your addressing some of the questions.
    I yield back.
    Mr. Reichert. Thank you, Mr. Thompson. We are pleased to 
have our distinguished guest with us this morning. The Chair 
now recognizes the Honorable George Foresman, Under Secretary 
for Preparedness, U.S. Department of Homeland Security, for his 
testimony.

   STATEMENT OF HON. GEORGE W. FORESMAN, UNDER SECRETARY FOR 
         PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Foresman. Good morning, Chairman Reichert, Congressman 
Pascrell, other distinguished members of the committee. Thank 
you for the opportunity to appear before you today. I am here 
to talk about the fiscal year 2007 budget request for the 
Department of Homeland Security's Preparedness Directorate, an 
absolutely essential element to the success and safety of 
America as we look towards the next hurricane season or the 
next emergency or disaster.
    I look forward to answering your questions about the 
President's budget request, but first I would like to provide 
you with some background about the directorate, my goal and 
vision for strengthening America's preparedness, and how the 
President's budget will allow us to meet these goals.
    The Department of Homeland Security was created as an all 
hazards risk management organization designed to prevent, 
protect against, mitigate, prepare for, and manage crisis 
situations across the broad continuum of risks. This is 
important. Over the past 20 years as a nation we have not had a 
comprehensive national approach that was flexible enough to 
react to changes along the continuum of risk. Secretary 
Chertoff's leadership, combined with the natural maturity of 
our post-9/11 efforts, has led the Nation to a point that 
requires a change in the way that we think about the concept of 
preparedness.
    Preparedness is not simply a step in the continuum of what 
we do to manage risks in the homeland. Rather, it is the 
umbrella over the entire continuum. It is much more than just 
an administrative function within the Department. The mission 
applies to each office and component within DHS, across the 
Federal interagency with our State, local, territorial, tribal 
and private partners, and our most critical element, the 
American people. It is a shared national mission, not simply a 
Federal activity. Simply put, Preparedness knits together the 
many parts to form the whole.
    To strengthen preparedness, we absolutely must focus more 
acutely on integration and synchronization and communication 
within and among all of the elements of the preparedness 
equation. This requires that we preserve the critical 
individual missions, cultures and identities of organizations 
while coalescing them as part of a broader national effort.
    Since I came into office 2 months ago I have come to 
appreciate that each of the seven offices and programs that 
collectively form the Preparedness Directorate have the ability 
when enhanced as a team and coordinated and synchronized with 
other offices across the Department, as well as our Federal, 
State, local and private partners, to accelerate the 
transformation of our national preparedness efforts into an 
efficient and organized system. It is a long term effort and it 
is imperative that we get moving in a more comprehensive 
fashion. I have seen progress in many of the areas in the 
Preparedness Directorate and across the Department in just my 2 
months in office.
    The President's budget that I am here to discuss today 
builds upon those successes that we have achieved. The budget 
also reflects what we must do to achieve more by building a 
stronger, more secure integration in unity of our national 
efforts.
    Central to this effort is the creation of the National 
Preparedness Integration Program, or NPIP. The 2007 request for 
this initiative is $50 million, and would support the 
directorate by providing a centralized mechanism for promoting 
more effective integration and synchronization of preparedness 
across jurisdictions and all levels of Government and between 
the public and the private sectors.
    By standardizing a common consistent doctrine to guide our 
planning, training, exercise and program management, we will be 
able to link and integrate currently independent activities 
across all levels of government and within the private sector. 
Standardization will also allows us to better measure 
performance so we can individually look at organizations and 
collectively as a system assess our progress.
    We want to be able to answer your repeated questions in 
Congress of how much better prepared are we today than we were 
a year ago. Management matters and NPIP is absolutely critical 
to the Department's ability to manage the individual as part of 
the collective, because as we all know, in our system's 
approach what one organization does affects another's, 
especially in the context of homeland security.
    The President's request for the Office of Grants and 
Training is $2.7 billion. Of this amount, $633 million is for 
the State Homeland Security Grant Program, which is an $88.5 
million increase from fiscal year 2006 level. An additional 
$838 million is for the continuance of the Urban Areas Security 
Initiative, which targets funds to the Nation's highest risk 
urban areas.
    Further, the request provides $600 million for a new 
Targeted Infrastructure Protection Program to supplement State, 
local and private infrastructure protection efforts based on 
critical vulnerabilities. The requested level of funding is a 
$213.9 million increase from the level of funding appropriated 
to the individual infrastructure programs in 2006.
    The fiscal year 2007 request also provides $293 million for 
the Assistance to Firefighters Grant Program, as well as $35 
million dollars for Citizens Corps Program, which represents a 
$15 million increase over fiscal year 2006. We are also 
requesting $170 million for the Emergency Management 
Performance Grant Program, which assists, as you noted, States 
in urban areas to sustain and enhance the effectiveness of 
their emergency management programs.
    The request also includes $92.3 million for State and local 
training programs, $48.7 million for our National Exercise 
Program, which provides support to State and local exercises 
and for efforts to synchronize national level exercise 
activities. Also included is $11.5 million for technical 
assistance initiatives, as well as $23 million for program 
evaluation to better assess how previous grant funds have been 
utilized.
    Across the entire Preparedness Directorate we have a 
plethora of activities that are being unified and synchronized, 
but one that I would like to point out in terms of my opening 
statement, HITRAC. HITRAC integrates threat analysis with 
vulnerability and consequence information to provide public and 
private infrastructure stakeholders with comprehensive risk 
assessments. HITRAC represents a spectrum approach, a unified 
approach to linking together our information analysis, 
infrastructure protection, as well as other activities in the 
Department to form a comprehensive picture of risk.
    It is an excellent example of the positive tangible results 
that can be produced when the public and private sectors 
collaborate in areas of mutual concern, and in this case the 
fusion of intelligence and information. It is the kind of 
collaboration that was envisioned when the Department of 
Homeland Security was created, and we are committed to 
replicating this success across the entire department.
    Mr. Chairman and members of the committee, I have other 
portions with regard to my opening statement, but I think you 
all have a plethora of questions that you would prefer to get 
to, and with that I look forward to engaging not only in our 
questions and answers today but also in substantive dialog as 
we move forward.
    [The statement of Mr. Foresman follows:]

                Prepared Statement of George W. Foresman

    Good morning Chairman Reichert, Congressman Pascrell, and other 
distinguished members of the committee. Thank you for the opportunity 
to appear today before the Committee to discuss the Fiscal Year 2007 
budget request for the Department of Homeland Security's Preparedness 
Directorate. At the outset, Mr. Chairman, let me thank you for the 
support that you have provided to the Department and for your 
leadership in furthering our shared goal of ensuring the safety and 
security of our homeland. I look forward to answering your questions 
about the President's FY07 budget request, but first I would like to 
provide you with some background about the Directorate and its 
component organizations, my vision for the direction of the office, and 
our initial roadmap for getting there.
    The Preparedness Directorate and the position of Under Secretary 
for Preparedness were created as part of Secretary Chertoff's Second 
Stage Review. Under the current structure, there are 7 component 
offices that report to me organized under the rubric of `the 
preparedness directorate'; these are the Office of Infrastructure 
Protection, the Chief Medical Officer, the Office of National Capital 
Region Coordination, the U.S. Fire Administration, the Office of Grants 
and Training, the Office of Cyber Security and Telecommunications, and 
the Office of State and Local Government Coordination.
    The Directorate was created, as the Secretary said last July, to 
coordinate ``the full range of our capabilities to prevent, protect 
against, and respond to acts of terror or other disasters.'' The 
Secretary is absolutely right: in the early days the Department was 
often viewed as a terrorist-fighting entity, but its broad-spectrum 
mission as an all-hazards department has become clearer through time 
and understanding by officials at all levels of government, the private 
sector, and our citizens. Simply put, the Department was created by the 
Congress as an all-hazards risk management organization from day one.
    I would observe that over the past 20 years, we have not had a 
comprehensive, national approach that was dynamic and flexible enough 
to react to changes in a continuum of risk. Our new and correct 
approach requires a change in the way we think about the concept of 
preparedness. This change is absolutely necessary to ensure our 
citizens are safer and more secure in the 21st Century.
    The Secretary's definition reflects that preparedness is not simply 
a step in the continuum of what we do to manage risks to the homeland 
or the function of a single entity. Rather, it is the umbrella over the 
continuum. Simply put, preparedness is how we will knit together the 
parts to form the whole.
    It is important to understand that under our current evolving risk 
management principles within the Department, Preparedness is not just 
an administrative function within the department. Our mission applies 
to each office and component within DHS, across the federal inter-
agency, with our state, local, territorial, tribal and private 
partners, and with our most critical element--the American people. Our 
job is to create synchronization and integration within all of these 
elements. It is a shared national mission, not simply a federal 
activity.
    To strengthen preparedness we absolutely must focus more acutely on 
integration, synchronization, and communication. In order to achieve a 
truly national preparedness effort, many pieces and parts need to come 
together better. We all need to clearly understand how this can be 
accomplished to promote meaningful strengthening. This requires that we 
preserve critical individual missions, cultures, and identities of 
organizations while coalescing them as part of a broader national 
effort.
    Since the Department was established in March of 2003, the 
Department has testified at more than 515 hearings and has appeared at 
5,116 Congressional briefings. At times, though, I know full well that 
the Department has been criticized for a lack of communication and 
responsiveness. And, from my perspective as a State official in 
Virginia, I did not always receive adequate information and feedback 
from the Federal Government. However, the information flow from DHS to 
state and local entities which began even prior to my arrival, has 
dramatically improved, and Mr. Chairman, I pledge to continue to 
improve our outreach to Congress, this Committee, as well as our State 
and local partners.
    It is with this background and these guiding priorities in mind 
that I entered into office little more than two months ago. In that 
short time I have come to appreciate that each of the offices and 
programs that collectively form the Preparedness Directorate have the 
ability, when enhanced as a team and coordinated and synchronized with 
other offices across the department and our federal, state, local, and 
private partners, to transform our national preparedness effort into an 
efficient and organized system. It is a long term effort and it is 
imperative we get moving.
    And I have seen progress made in these areas just two months in 
office. However, the President's budget that I am here to discuss with 
you today is not just a reflection of the successes that we have 
achieved, but also what we must do to achieve more, by building a 
stronger, more secure integration and unity of effort.
    Central to this effort is the creation of the National Preparedness 
Integration Program (NPIP). The FY07 request for this initiative is $50 
million and would support the Directorate by providing a centralized 
mechanism for promoting integration and synchronization of preparedness 
across jurisdictions and all levels of government, and between the 
public and private sectors. By standardizing a common, consistent 
doctrine and approach to guide planning, training, exercise and program 
management, we will be able to link and integrate currently independent 
activities across federal, state, local, and private sector 
organizations. Standardization allows us to better measure performance 
so we can individually and collectively assess our progress. That is 
not the case today, and it keeps us from answering your most basic 
question: How much better prepared are we? This will allow us to 
evaluate preparedness from state to state and city to city--as well as 
nationally.
    Management matters. And NPIP is absolutely critical to the 
Department's ability to manage the individual as part of the 
collective, because as we all know, what one organization does often 
affects other areas--especially in homeland security.
    The Office of Grants and Training (G&T) is a key component of the 
Preparedness Directorate's mission to enhance the nation's readiness 
for acts of terrorism, as well as other strategic issues that are vital 
to national preparedness. Through the implementation of Homeland 
Security Presidential Directive #8, G&T is establishing policies that 
strengthen national preparedness for terrorist attacks, major disasters 
and other emergencies by implementing the National Preparedness Goal, 
improving delivery of federal preparedness assistance to State, local 
and tribal governments, and strengthening and supporting other 
capabilities required by state, local and tribal jurisdictions and 
other Federal agencies. Taken individually, each of G&T's activities--
equip, train, exercise, evaluate and advise, and assess and 
coordinate--represent individual steps in a continuous cycle of 
preparedness.
    Since September 11, 2001, DHS has provided nearly $18 billion to 
support our State and local emergency prevention and response 
community. In fact, more than $30 billion has been awarded government-
wide. Of DHS funding, approximately $14 billion has been focused on 
homeland security and terrorism priorities, with nearly $22 billion 
government wide. DHS is currently in the process of providing an 
additional $2.6 billion in FY 2006 resources in homeland security. 
Further the Department has provided counterterrorism training to more 
than 1.2 million emergency personnel from across the nation.
    Mr. Chairman, the President's FY 2007 budget request advances DHS's 
mission, and in turn the mission of the Preparedness Directorate and 
the Department, of enhancing the nation's security and preparedness. 
That request totals more than $2.7 billion for G&T to continue our 
strong commitment and support to the nation's first responder 
community. Of this amount, $633 million is for the State Homeland 
Security Grant Program, which is an $88.5 million increase from the 
FY06 enacted level. The Department would distribute these funds on the 
basis of risk and need while aligning with national priorities--similar 
to the approach taken in FY 2006. An additional $838 million is for the 
continuance of the Urban Areas Security Initiative, which targets funds 
to the nation's highest risk urban areas. To simplify the number of 
programs while continuing dedicated funding for law enforcement's 
counter-terrorism efforts, the DHS proposes that no less than twenty 
percent of the State Homeland Security Grant Program and no less than 
twenty percent of Urban Areas Security Initiative Grant Program be used 
for law enforcement terrorism prevention activities.
    Further, the request provides $600 million for a new Targeted 
Infrastructure Protection Program (TIPP) to supplement State, local, 
and private sector infrastructure protection efforts based on critical 
vulnerabilities. TIPP will directly enhance the Nation's level of 
preparedness by providing funds to owners and operators of key transit 
systems, port assets, and other critical infrastructure to prevent and 
respond to large scale incidents. TIPP would consolidate the existing, 
stove-piped infrastructure programs into a single grant program that 
would give the Secretary maximum flexibility to target funds based on 
the most recent risk and threat information. The requested level of 
funding is a $213.9 million increase from the level of funding 
appropriated to the individual infrastructure programs in FY 2006.
    The FY 2007 request also includes a continued commitment to our 
nation's fire services by providing $293 million for the Assistance to 
Firefighters Grant Program. And, as in FY 2006, G&T will continue to 
administer this program in cooperation with the United States Fire 
Administration. Since 2001, more than $2.4 billion has been awarded 
through the AFG program.
    The FY 2007 request also includes $35 million the Citizens Corps 
Program. This represents a $15 million increase over FY 2006. I would 
like to take this opportunity to stress the importance of citizen 
preparedness. Citizen preparedness is essential to our preparedness as 
a nation. Recent outside surveys indicate that citizens are concerned 
about the threats facing the nation and are willing to participate to 
make their communities safer. Unfortunately, too many Americans have 
low awareness of local emergency plans, are not involved in local 
emergency drills, and are not adequately prepared at home. The increase 
in funding will help change the culture to ensure that everyone takes 
an active role in his or her safety and to increase the collaboration 
between citizens and emergency responders.
    We are also requesting $170 million for the Emergency Management 
Performance Grants (EMPG) Program, which assists States in sustaining 
their emergency management programs. And, Mr. Chairman, G&T will 
continue to work and coordinate closely with FEMA on this program.
    The request also includes $92.3 million for G&T's State and Local 
Training Program, and $48.7 million for the National Exercise Program, 
which includes management of the Homeland Security Exercise Evaluation 
System, Lessons Learned Information Sharing System, providing support 
for State and local exercises and for efforts to synchronize national 
level exercise activities and management of the national Top Officials, 
or TOPOFF, exercise series. Finally, the request includes $11.5 million 
for technical assistance initiatives for State and local agencies and 
$23 million for program evaluation to better assess how previous grant 
funds have been utilized.
    The President's request continues the Department's significant 
changes to the way in which State homeland security grant funds are 
distributed. For FY 2007, the Department will continue to ensure that 
homeland security funds are awarded based on an evaluation of risk and 
needs, thereby ensuring that scarce resources go to where they are most 
needed. The distribution of homeland security funds based on risk 
aligns closely with the recommendations of the 9/11 Commission and the 
legislation that was considered by both the House and Senate during the 
last Congress. We will continue to work to improve and enhance risk 
methodologies while soliciting needed input and advice.
    The Directorate's Infrastructure Protection Office is charged with 
working with infrastructure stakeholders across the country, a vast 
majority of which are owned and operated by the private sector, to 
increase the security of the nation's infrastructure according to a 
risk-based approach. This approach allows us to make better judgments 
about where to target our resources and prioritize our protection 
efforts. The FY07 budget request of $549.1 million will allow the 
Department to maintain its strong commitment to work with our public 
and private partners to ensure the safety the nation's critical 
infrastructure.
    I want to point out a few programs that have furthered our 
infrastructure protection mission for which sustained funding will 
ensure a solid return on investment: The National Infrastructure 
Protection Plan (NIPP) establishes a common risk-based framework and 
national plan for critical infrastructure protection activities across 
all 17 Critical Infrastructure and Key Resources--CI/KR--sectors to 
ensure consistent and comprehensive identification of assets, 
assessment of risk, and prioritization of assets. It highlights best 
practices and initiatives already underway, and introduces features 
such as metrics so that we can quantify the success of the program. The 
NIPP is on track to be rolled out this spring, with Sector Specific 
Plans following.
    To implement the NIPP, DHS is working with each of the 17 CI/KR 
sectors to support the development and operations of Sector 
Coordinating Councils and Government Coordinating Councils. SCCs are 
self-organized, self-led bodies comprised of the owners and operators 
and their representative organizations, while GCCs are interagency 
government groups bringing together federal, state, local and tribal 
entities with significant equities in the sector. These Councils work 
together on planning, policy development, and risk management and 
mitigation activities for the sector.
    As part of the Comprehensive Review program to conduct more 
detailed assessments of high risk sectors, the Office of Infrastructure 
Protection conducted comprehensive reviews of commercial nuclear power 
plants nationwide in 2005, and will continue to conduct similar reviews 
of other nuclear facilities until all are complete. In 2006, the 
program is being expanded to chemical facilities, and will be applied 
to other high-risk areas in 2007.
    The Homeland Infrastructure Threat and Risk Analysis Center, or 
HITRAC, is the Department's infrastructure-intelligence fusion center. 
It is comprised of personnel from the Office of Intelligence and 
Analysis and the Office of Infrastructure Protection, and other 
components, to integrate threat analysis with vulnerability and 
consequence information to provide public and private infrastructure 
stakeholders with comprehensive risk assessments. HITRAC provides 
analytical support for the threat portions of risk formulas used to 
prioritize grants to State and local governments, including Port 
Security Grants and the Urban Area Security Initiative. HITRAC 
continues to refine the threat portion of the risk methodology used to 
support the grant process as it gains a better understanding of the 
data and access to more sources of Intelligence Community and law 
enforcement information.
    Mr. Chairman, HITRAC is an excellent example of the positive 
tangible results that can be produced when the public and private 
sectors collaborate in areas of mutual concern--in this case, fusing 
intelligence to inform protection. It is the kind of collaboration that 
Congress envisioned when it created the Department of Homeland Security 
and we are committed to replicating its success across the Department.
    The National Asset Database is the cornerstone of our nation's 
critical infrastructure protection efforts as it represents a 
repository of the nation's assets and resources. While the NADB's 
current capability provides for basic data prioritization and 
identification of critical infrastructure, planned enhancements include 
utilizing the Infrastructure Protection Analysis Capability to 
integrate consequence, vulnerability and interdependency data with 
threat information to prioritize assets based on risk. The NADB is the 
foundation of the Department's Risk-Based Approach and serves as the 
basis for allocating resources through such efforts as the Homeland 
Security Grant Programs, Site Assistance Visits, Buffer Zone Protection 
visits, Comprehensive Reviews, and other Protective or Preparedness 
programs.
    The FY07 request for the Office of Cyber Security and 
Telecommunications is $235.4 million. This will allow the office to 
successfully meet its mission to work collaboratively with public, 
private, and international entities to secure cyberspace and America's 
cyber assets, and to build emergency preparedness telecommunications 
capabilities. To meet its mission, the National Cyber Security Division 
is strengthening the national cyberspace security response system 
implementing its cyber risk management program. The recent Cyber Storm 
exercise demonstrated that we have made significant strides in 
enhancing our national cyber security preparedness and helped us 
identify specific areas in which we can still make meaningful progress.
    Integral to the mission of the Preparedness Directorate is the 
Office of the Chief Medical Officer (CMO) at DHS, who is charged with 
coordinating Department medical preparedness and response activities 
including coordinating the Department's activities on avian flu. The 
CMO ensures internal and external coordination of all medical 
preparedness activities to prevent and mitigate biologically-based 
attacks on human health or our food supply. This includes preparation 
for consequences of catastrophic incidents, many of which are medical 
in nature, by fully engaging with state and local authorities, 
associations of medical professionals, and other stakeholders that deal 
with the medical consequences of natural disasters or terrorist 
attacks.
    The President has requested an additional $3 million in funding for 
the CMO in FY07. Among other things, this funding will ensure that the 
CMO's office can fully support its role in the National Disaster 
Medical System, which supports the teams of medical volunteers who 
performed so heroically during Hurricane Katrina. This will ensure that 
the CMO is adequately funded to fulfill its role in coordinating 
medical intelligence and surveillance activities of the Department, 
discharge the Department's responsibilities for Project BioShield, and 
coordinate with other Department organizational elements on their 
medical preparedness activities to provide technical guidance and 
direction.
    The United States Fire Administration request is $46.8 million, 
which is a $2.3 million increase over the FY 2006 funding level. Mr. 
Chairman, since September 11, 2001, the U.S. Fire Administration, 
through the National Fire Academy, has spent $46.4 million to provide 
training to over 340,000 first responders. This budget increase will 
allow the USFA to continue to develop and upgrade courses, training, 
and materials while remaining current with evolving technologies, 
techniques, and threats. This includes the delivery of training to 
enhance the ability of fire and emergency services personnel and first 
responders to deal more effectively with emergencies of all kinds; the 
operation of the National Emergency Training Center in Emmitsburg, 
Maryland and the Noble Training Center in Anniston, Alabama; the 
collection, analysis, and dissemination of national fire data; research 
partnerships to improve detection, protection, and suppression 
technologies; and programs to increase the capacity to prevent, 
mitigate, prepare for, and respond to emergencies.
    The Office for National Capital Region Coordination (NCRC) is 
charged with a broad mission to oversee and coordinate Federal programs 
for and relationships with State, local, and regional authorities in 
the National Capital Region. In FY07, the President has requested $1.99 
million to allow NCRC to continue its support of our regional partners, 
and the integration of Federal, State, local, and regional efforts, 
through advocacy, planning, information sharing, technical support, 
training and other means. In addition to coordination of large-scale, 
multi-jurisdictional efforts such as the NCR Strategic Plan, NCRC is 
often called upon to coordinate dozens of drills, exercises and events, 
planned and unplanned, in the course of a typical year. These include 
state funerals, July 4th celebrations, after-action reviews, and other 
special events.
    The budget would also allow the NCRC to enhance interoperability 
efforts between Federal, State, regional, nonprofit and private sector 
partners, including the First Responder Partnership Initiative, a 
landmark multi-jurisdictional, interoperable identity management 
capability. In addition, it includes efforts to integrate State, local 
and regional partners into various DHS networks and systems, to ensure 
sustainable communications even in the event of emergency or power 
outage, among other capacities. Our regional partners have made a 
significant investment in these initiatives, which represent just a few 
of NCRC and the region's many successes.
    The Office of State and Local Government Coordination (SLGC) 
oversees and coordinates departmental programs for and relationships 
with state and local governments. SLGC utilizes the information 
provided by state and local governments to assist the development of 
the national strategy and other homeland security activities. In 
partnership with other elements of the Department, SLGC maintains 
direct communications with state and local officials from across the 
country, providing unprecedented and immediate access to the 
Department. The FY07 request for the Office is $2.2 million, and will 
support our efforts to engage our state and local partners to better 
prepare our homeland.
    Mr. Chairman and Members of the Committee, I firmly believe that 
preparedness must permeate and infuse into our daily lives to become a 
culture of preparedness. To achieve a culture of preparedness, we must 
possess an intuitive understanding that as individuals and 
organizations we are all part of something bigger. We must be capable 
and connected. All of us must focus harder on integration and 
synchronization of differing parts instead of simply producing a series 
of independent products or activities with limited shelf life. Actions 
of one part affect the whole.
    Mr. Chairman, this budget will get us one step closer that that 
goal.
    Thank you once again for providing me the opportunity to speak with 
you all today and for your continued support and valuable input. I look 
forward to answering any questions you may have.

    Mr. Reichert. Thank you, Under Secretary. I do have a few 
questions and then we will move to the other members.
    I am in agreement with my colleagues Mr. Thompson and Mr. 
Pascrell and some of what they have said in their opening 
statements. I do have great concerns, and I mentioned some of 
those in my opening statement, having come from the law 
enforcement field.
    The reduction in COPS funding is worrisome to me. It not 
only assisted in the area of technology but more importantly in 
those areas where most of the money is spent, and that is the 
FTEs, the personnel cost. You and I have had a chance to talk a 
little bit about funding for those who are specifically 
assigned to intelligence gathering, intelligence analysis, 
those functions that are not traditionally law enforcement 
functions that are now assigned to local law enforcement across 
this Nation in each and every city and sheriff's office. We 
have deputies and police officers assigned to Federal task 
forces engaged in collecting information that pertains to our 
homeland security efforts.
    With those concerns, the $35 billion budget, some of the 
increases, the $80 million increase for Urban Area Security 
Initiative, I think it is a great move. The $214 million 
increase in grant programs for critical infrastructure, the $98 
million increase in State homeland security grant programs, all 
good things, but that personnel side is still worrisome to me.
    The thing that is also worrisome to me, and this will lead 
to my first question, is the backlog of a lot of these grant 
funds. Can you explain why so much of the money grants are in 
backlog? I know in my own State I think it is almost $150 
million that still remain unspent.
    Mr. Foresman. Congressman, let me address your question two 
ways. First, I had the opportunity to sit on the national task 
force that consisted of local, State and Federal officials 
several years ago that looked at the flow of funds from the 
Federal down to the State, down to the local level. We all 
recognize that by the time we get to the end of fiscal year 
2006 we will have committed about $18 billion in funds to help 
State and local governments with their preparedness efforts. We 
also recognize that there is probably about 50 percent of those 
funds, maybe a little bit more that have yet to be expended, 
but they have in fact been obligated.
    I think one of the things that we have to recognize is as 
we look at this continuum of efforts since 9/11, States and 
communities, as I like to say, were able to do the low hanging 
fruit in the early days, those things that they knew that they 
needed to get done, they had been priorities for a number of 
years. The Federal assistance helped them be able to do that.
    And so those low hanging fruits have been plucked from the 
tree, if you will, and we are now at the point where States and 
communities are working on more long-term planning, training 
and exercise activities, equipment acquisitions that cannot be 
accomplished in a short period of time, and the important 
message here is the funds have been obligated. They may not 
have been actually expended, but obligated, meaning States and 
communities have spending plans against which those funds are 
going to be used.
    The second part that I would offer to you is that States 
and communities have had to adjust their procurement practices. 
One of the things that we found in the post-9/11 environment, 
we were trying to use ordinary processes at the Federal, State 
or local level to do what was essentially an extraordinary 
level of enhanced strengthening of our national readiness 
immediately after 9/11.
    Congressman Pascrell knows when we are at the local level, 
some local governments, for instance, cannot obligate money 
under their procurement systems unless they actually have the 
dollars in the bank. At the same time that States and 
communities have been going along making enhancements to their 
readiness by doing the planning, training and acquiring the 
equipment, they have also had to streamline their procurement 
processes, they have had to go back and in some cases actually 
change laws to make it so that they can obligate the funds 
before they actually have the money in the bank. So there are 
really two pieces to the equation. It is a process issue as 
well as just a work effort issue.
    Mr. Reichert. I am going to take a Chair prerogative here 
and ask one more quick question. Moving on to another topic, 
this is one that Mr. Thompson touched on briefly. Question, 
does it make sense to separate preparedness and response, and 
your personal feeling on whether or not FEMA should be removed 
from the umbrella of Department of Homeland Security. Those 
questions are kind of tied together. Thank you.
    Mr. Foresman. Congressman, as we have articulated, as the 
Secretary has articulated, preparedness has never been simply a 
function of FEMA. Preparedness is one of the steps in a 
continuum when you talk about preparedness, response and 
recovery and mitigation in the old context. In our post-9/11 
risk management environment, preparedness is the umbrella over 
everything. It is the common thread that links together what we 
do to prevent, deter, to respond, to recover, to mitigate, and 
in fact we have not taken preparedness out of FEMA, nor have we 
taken FEMA out of preparedness. Every element in the Department 
has a preparedness culture or preparedness mission that they 
are involved with.
    Frankly, what we do in the Department is linking together 
all of the independent to make it very much interdependent. 
Having been in this business for more than 20 years and having 
looked at the structure of the Department, I absolutely think 
we are in the right organizational posture right now, with the 
Preparedness Directorate, with FEMA in the Department. And I 
say that for two reasons. Historically, whenever a disaster 
occurs, we have seen that FEMA has had to deploy a lot of very 
talented men and women down field, if you will, to deal with 
the disaster at hand. I mean we have got thousands of people 
who are still today down in the gulf coast working on a day-to-
day basis, and what that caused and from a practical experience 
in Virginia, if we had a disaster in Pennsylvania and everybody 
from the FEMA region was in Pennsylvania dealing with a 
disaster, there was no one to work with Virginia getting us 
ready for our next disaster.
    So this organizational structure will allow us not only to 
deal with the immediacy of crisis events in FEMA's coordination 
of response and recovery activities, but it will also always 
allow us to keep our eyes on the next event, because there will 
be another event, and by having the Preparedness Directorate we 
are able to keep the forward focus, but most importantly we are 
able to link together across not only the Department but 
frankly the entire Federal Interagency a much more 
comprehensive approach to preparedness in this country than has 
ever been the case before.
    Mr. Reichert. Thank you.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. My first question is 
to the response you just gave to the chairman. What do you 
think the response is from the mayors and the Governors and the 
first responders to the answer that you just provided to the 
chairman on this question? Would they agree with you, disagree 
with you, and have they been consulted in terms of where FEMA 
is right now?
    Mr. Foresman. Congressman, thank you, and I think that is 
an excellent question because one of the things I clearly 
understand, and the Secretary shares this, as does the other 
leadership in the Department, is the decisions that we make at 
the Federal level have national implications, which means there 
is a downstream impact on State, local, our tribal and 
territorial partners, as well as private sector partners. With 
the Hurricane Katrina after action report that is out from the 
White House now, of course the House report is out, we are 
expecting the Senate report in the not too distant future, one 
of the things that we have been tasked to do in the 
Preparedness Directorate within the Department is to amalgamate 
all of these Katrina recommendations, including those about 
whether FEMA should or shouldn't be in the Department, and work 
through them in a very logical fashion.
    We are bringing in this Friday, 2 days from now, 
stakeholders representing local and State government, 
representing a wide range of disciplines from fire to police to 
public works to public health and we are doing this as the 
first in a series of stakeholder outreach sessions because the 
first question that we have to be able to ask ourselves is we 
have many sets of recommendations that are out there and we 
need to engage our stakeholders to find out where their 
perceptions are with regard to some of these recommendations.
    So I don't have the answer for you today but we do have the 
process and they will all be here on Friday.
    Mr. Pascrell. With all due respect, Mr. Under Secretary, it 
would seem the me that we need stakeholders before we do 
anything. It is the history of the Homeland Security Department 
to turn to stakeholders when they are in trouble. And whether 
you are talking about dealing with science and technology, 
whether you are talking about going out for contracts, before 
you do anything you need to establish standards and priorities 
which can only be established if the folks who have the boots 
on the ground are asked first and not last. It is the history 
of your department not to do that and that is why the wheels 
are coming off the bus.
    I think the question that the chairman asked is right on 
target and I know that you are giving us, trying to give us a 
very basic history, but if you don't ask these fire folks and 
cops and EMTs up front, if you don't ask the business community 
and industry up front, and regardless of what the issue or the 
problem is, we are never going to get anything done, we are not 
going to be results oriented and all we are going to be doing 
is tripping over processes, which we are good at in Washington 
in both the Congress and the administration.
    Now you say on page 5 of your testimony that the 2007 
request includes a continued commitment to our Nation's fire 
services by providing $293 million. You know quite well that 
there was a request to basic needs of fire departments, not 
terrorism, but basic needs, $3 billion in applications in 2006.
    Now not only didn't we reach or come close to responding to 
those basic needs, but now we are cutting back almost 50 
percent, which gets us further away from these basic needs. You 
tell me, please, how is this a commitment to the first 
responders of the United States of America.
    Mr. Foresman. Congressman, thank you. To your first point, 
the one thing I would offer is the reason we are bringing the 
stakeholders in Friday is this is the first step in the process 
so we want to have them in early in terms of what is the road 
ahead with all of these recommendations. So just to clarify. If 
I didn't communicate effectively, I apologize.
    With regard to the commitment to the Nation's first 
responders, as we look at the nearly $18 billion that will be 
out there by the end of this year, and if we look across the 
Federal Government's commitment to first responders over the 
course, well, frankly, to State and local governments nearly 
$30 billion since 2001, one of the things that we recognize is 
there is a dramatic difference between the need to have and the 
want to have and those things that are Federal responsibility 
versus a State and local responsibility.
    Congressman if I might, please, with all due respect, what 
I would just offer to you is we had a survey that was done in 
2001 that we asked, for instance, the fire service what their 
needs were with regard to in the post-9/11 environment and they 
identified about $3 billion worth of needs. By the end of this 
year we will have put about $3 billion out there.
    I realize that needs change with time, but given what we 
understand about the needs from the fire service, there is a 
dramatic difference between the number of applications and 
dollar value of those applications and a very well understood 
approach about what are the absolute needs out there.
    Mr. Pascrell. Mr. Secretary, with all due respect, this is 
why there is confusion which leads to collusion. You know what, 
your answer is not acceptable. I want you to know that right 
now. There were $3 billion in requests before 9/11. You go back 
to the request of the year 1999 after the Fire Act was passed, 
you will see $3 billion in needs.
    And what you have attempted to do, this administration, Mr. 
Chairman, with due respect, what you have attempted to do is 
meld them together. I always use the pinochle term, meld, so 
they all go in one kind of block grant, it is not the proper 
technical term for this right now, so that everything becomes 
one and then priorities are not met.
    So that in 2007, the year we are now going into, FEMA has 
gone all over the country preparing first responders for how to 
help them make out these applications for the fire grants. 
There is going to be $3 billion plus and we will have cut this 
down do $290 million. That does not make sense.
    You cannot justify those cuts and look at the fire fighters 
of this country and tell them you are doing the best that you 
can for them and you are still committed. The administration, 
Mr. Chairman, is not committed, they are not committed to the 
cops of this country and they are not committed to the EMTs. 
This budget is proof of the pudding.
    Mr. Reichert. The gentleman's time has expired.
    Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Following up on some of the chairman's questions about the 
moneys that have been appropriated by the Federal Government to 
the States that have not yet been drawn down. I would like to 
ask you very specifically, Mr. Foresman, wouldn't it be 
appropriate for DHS grant recipients to have to provide to the 
Department an accounting of the funds that they are receiving? 
Are you getting any kind of accounting from the recipients?
    Mr. Foresman. Congressman, we are. There is a process that 
goes into how these dollars are provided to the States. The 
first thing the States are doing is putting together a spending 
plan and a needs justification, if you will, that serves as the 
basis for their request and then they are required to report 
back on the expenditure of funds and the process that they are 
making with regard to the utilization of those funds, and of 
course you all in Congress have put some requirements in terms 
of timeliness of these activities.
    One of the things that we have to be careful about at 
homeland security is that we don't create additional 
requirements on them beyond the normal audit requirements or 
the normal accounting requirements that States and communities 
already have.
    Mr. Dent. I guess my follow-up question, are there not out 
there appropriate software programs designed to help State and 
local authorities account for Federal grant moneys? I am aware 
of some of the programs from some companies that could help, 
some software programs. Are you aware of any?
    Mr. Foresman. Congressman, we used basic spread sheet 
programs in Virginia and we track more than half a billion 
dollars worth of grant funds, so I am sure that there are 
plenty of solutions that are out there.
    Mr. Dent. I have been familiar with a program called 
Quartermaster, and maybe at some other point, not today, go 
over that with you and your staff. I find that that is an 
interesting program.
    My final question, then I am going to yield my time to Mr. 
McCaul, when will the Department release the final version of 
the National Preparedness Goal?
    Mr. Foresman. The National Preparedness Goal is in the 
final stages of review and we expect that release to be very 
shortly. One of the things we have been doing is making sure we 
are going to be able to take into account the maximum degree 
possible the lessons learned out of Hurricane Katrina.
    Mr. Dent. I yield the balance of my time to Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Dent, thank you, Mr. Chairman, 
and thank you for being here today, Mr. Foresman. I have a very 
quick question. It focuses on the National Domestic 
Preparedness Consortium. It is a consortium as you know of 
about seven universities that have been--it has been very 
successful in training first responders.
    In my home State of Texas at Texas A&M there is training 
for first responders. The Texas Task Force 1 came out of this 
consortium. They provided assistance after 9/11, did a 
fantastic job, then helped with Katrina.
    However, the administration's proposed budget request 
significantly reduces funding for these training programs and I 
would like for you to explain why when we have such a 
successful program, why the administration has decided to cut 
this program.
    Mr. Foresman. Well, Congressman, in the immediate days, and 
this even existed prior to 9/11, we didn't have a lot of 
technical expertise to develop some of the needed training 
programs to assist States and communities with putting the 
programs in place that would allow first responders, for 
instance, to be able to better deal with weapons of mass 
destruction, these of types of things. The consortium provided 
a real value-added infusion to those training efforts 
nationally. We are developing and maturing to a point where 
States and communities have taken the training programs that 
have been provided by the consortium and they are now in the 
process of delivering those. We have got about 15 million State 
and local officials who have to be trained out there. We are 
slowly but surely moving our way down through that training 
activity. And what I would offer to you is we are at the point 
where we don't need to develop new training initiatives at this 
point but we need to sustain what we have, and that means 
delivery of the programs that have already been done.
    Mr. McCaul. What role do you see for the universities to 
play with respect to training first responders?
    Mr. Foresman. I think from the standpoint of all of our 
universities there are two elements, first we have to deal with 
the training issue, of what are the skill sets that you give to 
a first responder or health and medical worker, whomever it 
might be, to deal with a specific issue. The broader long-term 
implication we have to deal with in this country is how are we 
going to get the next generation of professionals ready to be, 
both in the public sector an private sector, the leaders 
sitting in my seat, the private sector making decisions about 
management of risk in the context of the post-9/11, post-
Katrina environment.
    I think a large part of where our colleges and universities 
are going to be most useful is making sure that we get that 
next generation ready because today we don't have a great deal 
of consistency when it comes to homeland security curriculums.
    Mr. McCaul. I see my time has expired.
    Mr. Reichert. Thank you, Mr. McCaul.
    Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Under Secretary, there were several references to money 
in the pipeline and therefore the inference is that you don't 
need additional moneys because there is money in the pipeline. 
Am I to understand that moneys in the pipeline are unobligated 
moneys or are these moneys that are already committed to 
various activities?
    Mr. Foresman. Congressman, these are going to be moneys 
that are already committed to various activities. And when I 
talk about money in the pipeline, what I would offer to you is 
we are looking at a single budget year and at this point we 
know from our discussions with our State and local partners, 
and the Secretary and I have both heard this from local 
officials at different places in the country, that they are 
meeting their equipment needs, short-term equipment needs. They 
are concerned about long-term sustainment. But at this point 
when we look at the continuum of dollars that are out there 
flowing for fiscal year 2007 with the money that is in the 
President's budget, the money that is in the pipeline, we are 
confident that that is going to meet the immediate needs for 
the next 18 to 24 months.
    Mr. Thompson. So therefore you reduced the request based on 
the fact that there is enough money in the pipeline to meet 
every existing need that you know?
    Mr. Foresman. No, sir. The request is an analysis of not 
only what is in the pipeline but also where we understand we 
are going with our maturity and the nature of our efforts here 
domestically. If I might.
    Mr. Thompson. We are going to talk later.
    Mr. Foresman. All right, sir.
    Mr. Thompson. I don't want to get caught up in the 
semantics. If it is in the pipeline and they are obligated, 
then if you ask for money the next year based on what you claim 
in the pipeline is meeting the need, that is a play on words. 
Our first responders and others are telling us that when you 
give less money the next year than you did the year before, you 
are actually reducing the effort, and by doing that and 
counting what is in the pipeline is a smoke screen. 
Nonetheless, let me go forward.
    You have excellent credentials, no question about it. The 
last FEMA Director had no emergency preparedness experience. Do 
you think the next Director of FEMA should have emergency 
preparedness experience?
    Mr. Foresman. Congressman, based on my discussions with the 
Secretary and the Deputy Secretary and based on my knowledge of 
the system, I feel confident that whoever is the next Director 
of FEMA from a permanent standpoint will have the appropriate 
credentials to ensure not only the Congress but the 
administration and the American public that they are very 
capable of performing the leadership mission in that 
organization.
    Mr. Thompson. So that is the Secretary and Assistant 
Secretary's opinion. You are Under Secretary. Do you think a 
FEMA Director should have that experience?
    Mr. Foresman. I believe a FEMA Director has to have 
experience at being able to effectively manage crisis events. 
Now good crisis management skills come in a wide set, from a 
law enforcement personnel, from a fire personnel, emergency 
management, so I won't tie it to a discipline but, yes, they 
need to have crisis management experience.
    Mr. Thompson. Now, since FEMA has been taken out separate 
from the preparedness, how are you going to work with FEMA the 
next hurricane season, what is the connection?
    Mr. Foresman. Congressman, let me stress we are the 
Department of Homeland Security, and, again, I have got to say 
it in the strongest of terms, FEMA still has a critical role in 
preparedness, and preparedness has a critical role in FEMA's 
accomplishment of its mission. Acting Director Paulison and I 
have met numerous times since I have been here. We are 
currently working on a process MOU which will define the very 
specific coordination mechanisms between the Preparedness 
Directorate as an administrative function and FEMA as component 
organization.
    One of the things I will say is it is not going to be a 
two-page MOU that says kind of broad things. We are going to 
have very specific, tangible coordination mechanisms in place 
to make sure nothing falls through the crack.
    Mr. Thompson. One more question.
    Mr. Reichert. Absolutely.
    Mr. Thompson. So if something occurs, there is nothing in 
place for FEMA and the Preparedness Directorate to coordinate 
activities?
    Mr. Foresman. No. No, sir. That is not what I said. We have 
interim relationships in place. And in terms of the management 
of the event, FEMA will be managing the event and they will be 
able to call on the Preparedness Directorate the same way that 
they could call on the Coast Guard, for instance, to provide 
them tangible technical assistance in being able to deal with 
that event.
    Mr. Thompson. Well, I think it would benefit the committee 
substantially if whatever the relationship is at this moment, 
you provide that relationship to us in writing.
    Mr. Foresman. Congressman, I would be more than happy to do 
that. Please understand I have spent 20 years in the business 
and when I was at--in a similar job in Virginia, I understand 
the importance of strong linkages between all the elements, and 
it is not just FEMA and Preparedness Directorate, it is 
everything in the Department. That is very much what we are 
trying to accomplish.
    Mr. Thompson. I applaud you for the MOU but that is a work 
in progress. It is what we are experiencing now and what we 
have experienced in the past that causes us great concern. And, 
generally speaking, it takes substantial time to get things 
done in the Department, and in the interim I think we need some 
assurance that those linkages are in place, and so that is what 
I am looking for.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Thompson.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, and thank you, Mr. 
Foresman, for being here.
    In my district I have the Noble Training Center which falls 
under your directorate, and as you know, it trains emergency 
managers and health care professionals in a hospital 
environment. Do you believe it is currently being utilized to 
its fullest potential?
    Mr. Foresman. Congressman, one of the things I am currently 
in the process of doing, they liken it to drinking water by the 
fire hose, is looking at all of the mission activities across 
the Directorate. We are talking about Noble, the Center for 
Domestic Preparedness, and a host of other activities. I was up 
at the United States Fire Administration last week.
    And what I want to make sure is from a foundational 
perspective that we right size the organization, that we have 
got the right business processes in place, and that we are 
getting the maximum efficiency. Because the more efficiency 
that we achieve in all of our training activity, the more first 
responders that can be trained at Noble or other sites or other 
activities through the Department.
    I will be more than happy to get back to you once I have 
had an opportunity to do that evaluation.
    Mr. Rogers. What time line do you think you will follow on 
that?
    Mr. Foresman. All of these briefings are scheduled to occur 
over the next 2 weeks and I actually am going to go down in the 
not too distant future to the Center and Noble and take a look 
at them myself and get an analysis. So 60 days I would say 
would be the outside. I can give you an initial indication in 
14 to 21 days, if that is acceptable.
    Mr. Rogers. That is fine. In fact, when you make that trip 
I would like you to let my office know. If there is a way I can 
join you, I would like to do that. Though it may not be 
possible with our votes.
    Mr. Rogers. You mentioned the fact that it does fall under 
your Fire Administration, current management, and also made 
reference the fact that CDP is a stone's throw away from it. 
Wouldn't it be more efficient for Noble to fall under the 
management umbrella of CDP as opposed to the Fire 
Administration?
    Mr. Foresman. Congressman, I don't know the answer to that 
but, believe me, I am very much confronted with what is the 
right business model. I have got any number of administrative 
functions within the Directorate that are legacy activities 
that were brought with their components when they were folded 
in. So we will look at that, and I am a big proponent of 
efficiency and effectiveness because that allows us to put more 
dollars on customer delivery.
    Mr. Rogers. Excellent.
    While you were speaking a little while ago with Congressman 
McCaul you made reference to the consortium and its funding 
levels. Do you know what level of funding is proposed for FY 
2007 and how it compares to what is in FY 2006 for that 
consortium?
    Mr. Foresman. I don't have the exact figure in front of me, 
Congressman, but when we looked at all of our allocations and 
looked at our budget requests, we tried to gauge where we were, 
and this goes to what Congressman Thompson was raising earlier. 
In the immediate post-9/11 environment we had to have a massive 
infusion of resources to get things up and running. The 
consortium is a good example where we had to put a lot of 
dollars into it to get the training programs developed, to get 
them out on the street. It is kind of like we used to say in 
the Fire Service that water hammer coming through the line.
    And so we are getting--we are at the point where we are not 
doing as much development, we are doing more sustainment in a 
lot of these activities.
    Mr. Foresman. And that is why our budget request is what it 
is for the consortium.
    Mr. Rogers. But I would like for you to find out for me and 
know exactly what that proposed amount is for the CDP. And as 
you do this review of efficiencies, I hope that you will look 
at additional responsibilities you can put into the CDP because 
it is an outstanding facility doing excellent work; and it can 
do more.
    Lastly, along that note, one of my concerns about the 
delivery of that training through the CDP is that currently 
these professionals have to come to the facility, and they are 
coming from all over the world. But in a poor rural district 
like mine, most of the first responders are volunteers; and 
they have full-time jobs, and it is not practical for them to 
be able to get off at the plant, take 2 weeks to go up to the 
Center for Domestic Preparedness and get the training they 
need.
    I would like to see more mobile training units sent out, 
because these people generally meet twice a month or once a 
week or whatever in the evening, for 2 or 3 hours. To see us do 
outreach and go out in these rural communities and train these 
first responders in a briefer way, do you have any idea about 
initiatives that are being considered to provide that kind of 
mobile training, because many of the districts are rural like 
mine?
    Mr. Foresman. Congressman, I do not know the specifics, 
again, pending some of the components' briefs, but let me 
offer--I was up at the United States Fire Administration, the 
National Fire Academy, last week and I spoke to all the 
students up there. And it was actually the couple of weeks 
during the year they have the volunteers. It is a combined 
volunteer/career week up there, and probably about half of the 
attendees were volunteers.
    One young man came up to me and said he very much 
appreciated the training and education that he was getting, but 
his wife wasn't very appreciative because he was taking a week 
off from work without pay. And I was a volunteer, my brother is 
a volunteer, and I understand the significant impact.
    But when we look at training efficiencies, wherever 
possible, we need to be taking training to the first responders 
rather than bringing the first responders to the training. It 
won't work in 100 percent of the cases, but we really need to 
put a premium on that.
    Mr. Rogers. I agree.
    Thank you very much Mr. Chairman, I yield back.
    Mr. Reichert. Thank you.
    Mr. Etheridge.
    Mr. Etheridge. Let me associate myself with my colleagues 
as it relates to budget numbers and questions, Mr. Secretary, 
because I think those are critical from what we said. But let 
me quickly move to a couple of very quick questions in my short 
period of time, and I will ask you to get this back in writing, 
and then I will get some verbal because, you know, when we 
think in terms of the response of homeland security, and FEMA 
particularly, you having come from the State level, you 
understand this.
    If you were out there as a citizen, it doesn't matter how 
that disaster happened, whether it was by natural disaster or 
manmade with a terrorist--and we are more likely to have in 
America a lot more natural disasters than we are terrorist 
disasters; historically that has been true, and yet a lot of 
our focus now is moving in another direction for funding. So 
let me ask you several questions, and I would like to have this 
in writing and come back.
    Number one, how many positions are there now currently in 
FEMA, how many positions were there prior to 9/11, how many 
positions in FEMA, in leadership, have less than 1 year 
experience?
    And Number two, in that area beyond that, is there any 
predisaster mitigation funding in FEMA this year? My 
understanding is there are zero dollars in FEMA for that this 
year; is that correct?
    Mr. Foresman. Congressman, I do not know but I will get 
back to you.
    Mr. Etheridge. If you get that in writing, I think that is 
important. Because you know as well as I do, if we can't do 
premitigation, that means you can't get prepared for the 
disaster you know is going to come from mapping floodplains, et 
cetera. So if you get that back to us, I would appreciate that. 
I think that is important, and it is a critical area.
    Mr. Etheridge. Now let me move to another area.
    State and local emergency managers, as you well know, work 
on preparedness every day. That is their job. And they see it 
as an integral part of the emergency management cycle of 
preparedness, response, recovery and mitigation. That is what 
they are into. And after all, the success of any preparedness 
plan hinges on the ability of people and organizations to 
respond and mitigate an incident.
    As you well know, we get all caught up here in Washington 
on the big issues and for the local fire responder, it may be a 
wreck, it may be a truck that is turned over, and it may be 
that volunteer is out there 24 hours away from the job. And yet 
we sit here and wallow around about a few bucks we are going to 
send them, and they have given up far more than what we do 
here.
    My State director of emergency management, as well as a 
number of managers across this country, have told me that they 
believe the separation of preparedness from other functions is 
a bad idea. So my question is, how do you define the difference 
between preparedness and prevention?
    And number two, how will the preparedness director 
coordinate his work with FEMA and other entities responsible 
for the response and recovery areas, whether it be natural or 
accidental or manmade?
    I think this is a critical issue as it relates to what you 
are trying to do.
    Mr. Foresman. And, Congressman, thank you for the question. 
You know I have had a number of conversations with Doug Hole 
and the others in North Carolina over the course of the years, 
both when I was in Virginia and now in this position.
    I think that one of the critical components that we have to 
consider here is, under the old model we thought about 
prevention as being--or I am sorry, preparedness as being one 
of those steps in the continuum. And as I said earlier, we are 
talking about preparedness being the amalgamation, the 
integration, the synchronization of everything.
    Mr. Etheridge. Excuse me just a minute. You said ``the old 
model.'' Talk to me about what you mean by ``the old model.''
    Mr. Foresman. If I might, let me finish this train and I 
will come back to you on that.
    And so we have created a continuum of risk management. When 
I talk about the old model--and ``old'' may not be the right 
descriptive term. I think we continue to see our approach to 
risk management in this nation evolve, and the best example I 
am going to give you, this is over 20 years, if you took the 
Hurricane Katrina after-action report and the Hurricane Andrew 
after-action report or the Loma Prieta earthquake after-action 
report and laid them side by side, you are going to find 
identical lessons learned.
    The scope is ostensibly a lot larger with what we are 
finding in Katrina than some of the past disasters, and what 
that tells us is, if we think about preparedness as a step in 
the continuum rather than the knitting together of all the 
pieces of the continuum, then you know we have the option of 
not doing it.
    I think a large part of what we are trying to do here is, 
Congress has directed that we do a better job of managing risk 
holistically in this country. We have always focused on the 
last disaster rather than what are the potential next 
disasters. And in a continuum of risk we develop a robust 
system so that the first responder on the street doesn't have 
to worry about whether it is about terrorism or tornadoes, 
fires or floods, crime or anything else, they have a 
standardized, integrated, single process that is going to 
support them irrespective of what the crisis is.
    We don't have that today. And we don't have that because we 
have not put a premium on taking prevention and deterrence, 
response, recovery and mitigation and all of those pieces and 
truly fusing them together not only in the context of emergency 
management, but in the context of how we govern.
    And Congressman Pascrell was pulling out the Constitution. 
And I think there is a good example here.
    Crisis management is about causing the three levels of 
government to be completely interoperable. But that is not what 
the Constitution envisioned. So we have got to respect those 
constitutional constructs, but find a way to make them 
completely interoperable; and that is what we are trying to do 
with this broader focus on preparedness.
    Mr. Etheridge. In your written response to me--Mr. 
Chairman, I see my time is up--would you please include in that 
also, I know we have had a long period where we have had no 
FEMA director. I know that is outside your jurisdiction. But in 
this written response I would like to know if we are going to 
have somebody permanently there to deal with, because if that 
is an important operation and we are now approaching hurricane 
season, I think the American people have a right to know that 
is a priority, and we need to have somebody in there with 
experience.
    Mr. Foresman. And, Congressman, let me offer, both the 
Secretary and Deputy Sectretary have been exceptionally focused 
on the FEMA Director, and there have been ongoing discussions. 
And that is among, if not--the highest priority in this 
Department right now is getting a good, quality individual in 
that position who will make sure that they can provide the 
leadership to FEMA that FEMA needs. And, you know, that is the 
person who I am going to work with to make sure that we are 
successful across the entire Department.
    FEMA is just one piece of the preparedness equation.
    Mr. Etheridge. But it is an important part.
    Mr. Reichert. The gentleman's time has expired.
    Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Foresman, as I am looking at your budget, it looks like 
the administration is requesting less in the grant program. 
What was the thinking behind that?
    Mr. Foresman. Congressman, we were talking earlier--in 
which particular grant program?
    Mr. Pearce. Just the overall homeland--I am looking here at 
the first--first responders.
    Mr. Foresman. Well, what we are looking at in terms of our 
budget is, what are those dollars that are already in the 
system that are things in process, obligated dollars that are 
going to be spent over the course of the remaining grant cycle, 
as well as what are the needs.
    And part of what I talked about earlier is, we are at a 
point where to accelerate our efforts immediately after 9/11, 
we had to put a massive infusion to do a lot of start-up 
activities, training and exercise, planning equipment 
acquisition. And while we are still having to keep that 
sustained effort up, it is beginning to level out, and I think 
that is what you are seeing reflected in the budget request.
    Mr. Pearce. How about the drawdown of the accounts? Has 
that occurred? How much has not been drawn down from previous 
grants?
    Mr. Foresman. Congressman, we know that, you know, by the 
time we get to the end of fiscal year 2006 we are going to 
have--about $18 billion will be out there; and I think about 
$11 billion, give or take, has been drawn down at this point.
    But this is one of the areas that we are going to focus 
heavily on. Our new Assistant Secretary for Grants and 
Training, Tracy Henke--I have talked with Tracy about this and 
we have been focused on products in the Department, and that is 
absolutely critical, things like the National Incident 
Management System and the National Response Plan.
    But we also need to give process tools to our State and 
local partners to make sure that we have good accounting 
processes in place, that we have the right procurement 
methodologies in place at the State and local level, because at 
the end of the day we need to be able to give you all real-time 
data about how we are doing with the expenditure of funds. We 
need to be able to monitor it from a Federal level perspective. 
States need to be able to monitor it in terms of their local 
governments.
    Mr. Pearce. So about $6 billion by the end of this year 
that will not have been drawn down?
    Mr. Foresman. No, sir. What I would say is, there is about 
$6 billion right now. And we will get you the exact dollars. 
But that is what we are trying to do is make sure we are not 
leaving money on the table, that it is being effectively 
applied.
    Mr. Pearce. Why are the different groups that are applying 
for this money not drawing it down?
    Mr. Foresman. There are a number of things.
    Mr. Pearce. Is it a States' process?
    Mr. Foresman. No. It is a function of where they are with 
the procurement. Let me give you an example.
    We have a jurisdiction, a couple of jurisdictions, in 
Virginia that had some major capital procurements that were in 
process, and those won't actually be delivered to them until 
September; so, therefore, they can't draw the money down until 
those are delivered.
    So this is just a process issue. I don't think it is 
endemic of any systemic problem in terms of movement of money.
    But we are talking to the stakeholders. And if we think 
there are any flow problems, we will make sure that we adjust.
    Mr. Pearce. Thank you.
    Does your office deal at all with grants to fire 
departments?
    Mr. Foresman. We do.
    Mr. Pearce. How do we coordinate the grants to the small, 
rural, volunteer fire departments? In other words, we just had 
a fire that--a grass fire that almost burned my hometown down, 
very similar to that thing that was going on in Cross Plains, 
Texas. And so we were able to go through and see that the local 
community, the fire department, had a nice waiting room that 
was paid for by a grant. But the volunteer fire departments 
were using 1990 equipment, and 47 of the 50 units were from 
volunteer fire departments. And the local, you know, the full 
fire department that is authorized only had two or three units.
    What guarantees do we have that the volunteer fire 
departments are getting some attention in these grants?
    Mr. Foresman. Well, in terms of the fire grant programs, 
there is a certain targeted portion of it that goes to the 
volunteer service versus the career service. There is a peer 
review process involved in it.
    And one of the things that we are trying to be very focused 
about is making sure that we have got an identifiable need that 
we are addressing when these dollars go out the door. At the 
end of the day, one of the biggest challenges is that this 
grant program, you could actually have a fire department 
receive a grant and the local jurisdiction may also be 
requesting a grant for the exact same thing, and the local 
government may not know that they are actually getting that 
grant because it is a direct Federal to local fire department 
delivery. It is not right or wrong.
    But we have got to do a better job of making sure that the 
State and local partners have the transparency of what we are 
doing with those fire grants, which departments are receiving 
it for what, so that we make sure that, you know, we are 
getting maximum utilization out of the full gamut of the grant 
dollars that are down there.
    Mr. Pearce. I am still confused on who stands on behalf of 
and who represents on behalf of the volunteers, because, you 
know, it is obvious that that need, need for equipment to 
address fires, is not the basis. It is something besides that. 
If it were, then we would see these 1990 and 1980 trucks 
replaced before you went in and did waiting rooms and 
watchtowers and stuff like that.
    Mr. Foresman. Well, and that is where I was discussing, 
Congressman, that it is a peer review process. We bring in both 
volunteer and career folks to do the evaluation of the 
applications rather than having someone who is not familiar 
with the fire service, not familiar with the needs of rural 
versus urban, career versus volunteer. We are trying to let it 
be a peer review process.
    But I will be more than happy to go back and take a look at 
it and make sure that we are putting as much appropriate 
scrutiny into it as possible.
    Mr. Pearce. Based on what I see in the field, you probably 
need to get a review of the peer review process.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Pearce.
    Mr. Thompson.
    Mr. Thompson. One of the things that you can provide the 
committee with is, what is the present plan for this review 
application? See, because I am having the same problem with my 
end of it, and I have a need for basic trucks that are not 
coming in.
    Then I see another department in another area getting 
imaging equipment, when some need a truck; and I am trying to 
figure out how we prioritize the applications.
    Is it based on the plan that you people are looking at, so 
that when it comes to my district, they say, well, in this area 
you need rolling stock, in this area we need imaging equipment?
    If you can just provide the members of this committee with 
whatever the plan is, that people are making judgments with it, 
then I would be very, very happy.
    Mr. Foresman. And Congressman, we will do that. And having 
been around when the program is rolled out, you know, this is 
the one grant program that operates differently than all of the 
others; and there is a grant application and a grant request, 
but not necessarily a plan that is associated with it.
    But we will take a look at it and get that to you.
    Mr. Reichert. Thank you, Mr. Thompson.
    Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I am kind of 
taking a risk here having come in late. I may ask a question 
that has already been asked.
    But my first question relates to what Mr. Pearce and Mr. 
Thompson were asking. When I was coming in, you were seeming to 
suggest that the reduction in your budget and some of the 
eliminations of programs are really due to a leveling off of 
funding after an initial investment had been made in the first 
responders, up front. Yet many fire departments and other first 
responders, though, are finding themselves unprepared.
    And I wanted to know if there was an assessment made of the 
State level of preparedness that drove the reductions. What 
was--
    Mr. Foresman. Congresswoman, absolutely, and thank you. The 
one thing that I also want to underscore is that when you look 
at our budget request last year versus our budget request this 
year, it is very close to being very much the same. But one of 
the things with regard to the fire service, as an example, in 
terms of activity, we went out and did a survey in 2001 and we 
said to the fire service, what are your needs? And they 
identified $3 billion worth of needs.
    We have gotten to this point in time, and we have had $3 
billion that have gone down to the fire service.
    But I also understand that when you look at the application 
process, there were $3 billion worth of applications last year. 
And part of what we are having to work through is, what are 
those needs that exist across the first responder community as 
a whole, those that should be funded through the Federal 
Government versus those that should be funded through State or 
local government activities. And I will tell you, as we have 
gone about this budget request, we have very carefully 
considered--and ``leveling off'' is not the correct term; I 
would simply say that the climb is not as steep as it may have 
been in the immediate days after 9/11. But we are still very 
much focused on providing dollars to States and communities for 
preparedness efforts, dollars that weren't there in total prior 
to 9/11.
    The fire grant program is a good example of one that was; I 
will acknowledge that. But some of these grant programs are new 
grant programs since 9/11.
    Mrs. Christensen. Well, I still--well, let me ask you this.
    As you assess what the Federal Government should pay and 
what local governments should pay, are you taking into 
consideration also the ability, the capacity, of certain 
communities to meet what you would consider a local 
responsibility? Because some communities are a lot poorer than 
others.
    Mr. Foresman. Congresswoman, when we look at this, we are 
not going to do a jurisdiction-by-jurisdiction or even a State-
by-State evaluation; but we have to make some value-added 
decisions in terms of the risk management continuum.
    For instance, you know, we are seeing major increases in 
infrastructure protection moneys this year. And you know one of 
the ways that you might look at it--and I won't necessarily say 
it is the right or the wrong way, but it is one of the ways--we 
got a lot of public-sector-focused activities in the immediate 
aftermath of 9/11 because we really didn't have a good handle, 
as a nation, on what we needed to do with regard to critical 
infrastructure protection. That has come into much greater 
clarity just in the last 18 months. And so we are enhancing our 
spending on critical infrastructure protection in addition to 
the first responders.
    Mrs. Christensen. In your statement, which I had a chance 
to go through, at least to glance at, you said that the office 
of the chief medical officer is integral to the mission of the 
preparedness director. I am still really unclear as to what 
that chief medical officer does.
    I think you have a good person that comes with a wealth of 
experience and expertise, but I am not clear what that person 
does. And yet I notice that he has an increase of $3 million in 
his budget.
    So, one, I would like to know, what does that person do 
vis-a-vis the Department of Health and Human Services and CDC, 
and is there also an increase for hospitals and public health 
commensurate with the chief medical officer, and where do they 
fit in your preparedness plans?
    Mr. Foresman. Congresswoman, excellent question. When we 
look at the health and medical components, it is a theme that 
permeates every risk or every hazard that we are trying to 
confront in this country.
    As you know, DHS is the overall domestic incident manager, 
and one of the core competencies that we have to be assured of, 
whether we are talking about at the Federal level or at the 
State and local level, is that we have got the capacity for 
health and medical coordination.
    And pandemic flu is a good example. It may manifest itself 
in the agriculture community where USDA would be the lead. It 
may manifest itself with humans where HHS would be the lead. 
And the role of the chief medical officer is to coordinate 
across the entire Federal family or State and local partners to 
make sure that our overall incident management strategies and 
our technical understanding of what is going on from an 
incident management standpoint is informed by science.
    And, you know, as a good example, we had an anthrax event 
here in the National Capital Region, or suspected anthrax 
event. And one of the great services provided by the chief 
medical officer, he was able to coalesce what were 
nonconcurrent decisions on what the science was saying about 
the incident at hand, and to a governor that I was trying to 
serve at the time, to the other governors, he was able to 
provide clarity on what was the right response action.
    So he is a technical advisor, he coordinates activities 
such as the National Disaster Medical System. He coordinates 
some of our biosurveillance activities that we have got going 
on in the Department; but most of all, he becomes an 
integration point between what HHS is doing, what USDA is doing 
on an agriculture perspective, DOD, any number of other Federal 
agencies.
    Mr. Reichert. The gentlelady's time has expired. Thank you.
    Mr. Secretary, how does--we have talked a lot about grants 
in rural areas and applications of grants and assigning of 
grants. How does risk and threat assessment play into your 
decision-making or DHS's decision-making in assigning grant 
applications?
    Mr. Foresman. Congressman, thank you.
    Probably one of the greatest challenges that we face as a 
country is moving to a much more risk-based system. And a risk-
based system does not imply an either/or; it implies a 
graduated approach that allows you to put a concentration of 
resources where you have got the highest level of risk.
    As we have developed our risk methodologies here in the 
Department, we have looked at threat vulnerability and 
consequence, for instance, in terms of something that may be a 
high threat but low consequence type of event. At the same 
side, it could be a high-vulnerability, low-consequence type of 
event. So we are trying to put some graduated scales on that.
    But one thing that I understand about risk assessment, 
particularly as it applies to the allocation of dollars, is 
that we have got to provide clear transparency to our 
stakeholder customers and to you all as a Congress about how 
the methodology works, what data is informing our decision 
processes. And as we go about with doing risk-based funding, we 
are not ignoring one area to provide funding to another.
    We are doing some balancing in terms of how we are applying 
resources in terms of either geographically or by a particular 
sector of the critical infrastructure or by a particular type 
of geographical area; and so we can do better at explaining 
exactly how that risk methodology works.
    Mr. Reichert. I think that is part of the confusion. There 
are so many grant processes and so many grants that apply to 
certain or specific needs across the country. Some fall into 
the area of being assigned or granted under risk and threat 
assessment analysis, and others are assigned and granted under 
other guideline requirements as they apply for their grants.
    And I think that is--we are struggling a little bit, at 
least I am here today, when you talk about decreases in certain 
grant opportunities, decreases in your budget, but also 
increases in other grant opportunities. The $80 million for the 
UASI grant is one example, a $214 million increase in grant 
programs in critical infrastructure and others.
    And you talk about the 50 percent unspent grant moneys that 
still are out there in the pipeline. All these come together. 
And I think for all of us, it just creates a little bit of 
confusion as to how the grants are processed and who and 
where--who assigns those and where they go and, you know, what 
is the process. So I think you have recognized that and you 
have mentioned that today in your statement.
    Very quickly, one of the things that, you know, we are all 
very interested in in this subcommittee is interoperability. We 
know that $1 billion has been established by Congress for an 
interoperability grant program that is to be administered by 
the National Telecommunications & Information Administration. 
Do you believe that the administration is providing adequate 
funding, first of all, for interoperability?
    Mr. Foresman. Congressman, you know, in addition to those 
funds, we know that if we look at some of that $18 billion that 
has gone down to the State and local level, probably about $2 
billion has been allocated to interoperability. We have heard 
figures ranging from solving the interoperability issue from 12 
billion to 18 billion and maybe even more.
    I think part of the challenge we are running into is what 
is interoperability? What is it that we are trying to achieve 
in terms of interoperability? Are we talking about every first 
responder being able to talk to every other first responder, or 
every police department being able to talk to departments at 
the command level?
    I think that in terms of where we are from a funding 
standpoint, we are putting the right amount of resources 
towards the interoperability solution. It is part technical, 
but it is also, large part, governance which we need to work 
with our State and local partners in making sure that we have 
clear plans in place for how we are they are going to achieve 
interoperability.
    Mr. Reichert. Do you believe the current structure in DHS 
allows for that organizational structure, that is, allow 
interoperability to be the priority that it should be for this 
Nation?
    Mr. Foresman. Congressman, what I would offer to you is 
Secretary Chertoff, myself, Deputy Secretary Jackson, our 
Acting Under Secretary of Science and Technology, Jeff Runge, 
we have talked about interoperability at great length over the 
past 60 days. It has probably been one of the three issues that 
have consumed the most amount of my time since I have been at 
DHS.
    The Secretary recognizes that we have got to do a stronger 
and better job with our interoperability efforts. And as we go 
about looking at what we are doing we will decide, you know, is 
it structured right? Are the business processes correct?
    But at the end of the day, we understand the concerns that 
you all and the first responders have. And I have lived with it 
as a first responder where the interoperability solution for me 
was three mikes. And that is not a good solution.
    Mr. Reichert. Do you think that NTIA should have a 
responsibility for awarding $1 billion in interoperability?
    Mr. Foresman. Congressman, what I would offer to you, our 
Assistant Secretary for Grants and Training, Tracy Henke, is 
over there talking to them today. We are going to make sure; we 
are absolutely committed to making sure to our State and local 
partners out there that we provide a Federal interoperability 
solution. Where it is administered from is not as important as 
making sure it is synchronized and integrated.
    One of the reasons why we want to have the National 
Preparedness Integration Program is to be able to achieve these 
types of synchronization, to make sure the money that is going 
out through grants and training, the money that is going out 
through that program and any other relevant dollars that are 
targeted towards interoperability are being targeted in a 
coordinated fashion across the entire Federal Government.
    Mr. Reichert. Just like we consolidated a number of 
different departments under Homeland Security, for efficiency 
reasons and knowing what the left hand and the right hand are 
doing together, I think that it is important for that $1 
billion to be with grants and training. As you know, we have 
talked about that, too. And I think that creates some confusion 
in trying to get those two agencies to work together.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I want to clear up, if I may, Mr. Secretary, things that 
you said in the original statement--not the original statement, 
but in the answers to questions of the chairman, how does one 
distinguish between--in dealing with first responders, 
distinguish between needs and wants?
    Do you remember specifically what I am talking about?
    Mr. Foresman. Yes, sir.
    Mr. Pascrell. I want to take exception to that. Unless I 
misinterpreted what you said, fire grants, while under Homeland 
Security, is a very different vegetable than all the other 
Homeland Security grants, as you well know.
    What is different about it? Is it competitive?
    And if you look at the history of it, in 2000, 2001, 2002, 
there was a major effort for us to emphasize rural and small 
suburban communities throughout this Nation, so that one would 
not come away with the idea that the Fire Act was established 
just for large cities in the Nation. We did that. We were 
successful.
    Members of Congress were not successful. The peer group 
review was successful. That was established, so that no 
Congressman, or group of Congressmen, could determine where 
Federal--the Federal Fire Act money would be spent.
    This is a very different situation because those things are 
needed. It isn't that you wanted to make the situation better. 
You know that the average fire apparatus in this country, Mr. 
Secretary, is over 25 years of age. So when you look at what--
in that example alone, what the basic needs are of that fire 
department, to assume that local communities can absorb this 
expense in their budgets is, to me, unrealistic.
    This is not reality TV. This is the real thing. This is 
where the rubber really hits the road.
    I have examined those applications. They are not only 
competitive, but they reflect the needs of those fire 
departments. These would be needs if 9/11 had never existed.
    You said it better than I did: $3 billion in applications 
before 9/11, correct? Basic needs: only able to respond to a 
small portion of it, basic needs.
    So I want to clarify that. There is no money in the 
pineline with the Fire Act. I will repeat, there is no money in 
the pipeline with the Fire Act.
    We are talking about Homeland Security issues, dealing with 
terror basically. Very different. In the Homeland Security 
legislation that was passed after 9/11, you need to spend the 
money before you get reimbursed, and you get reimbursed by the 
State. So for anybody from Homeland Security--anybody, 
including the Secretary--to stand before us, or sit before us, 
and act as if all of this is coming out of the same pool of 
money, I think that is a disservice to what this act is all 
about.
    And I would like to ask you questions.
    Many cities believe that the 311 systems can be used as a 
backup to 911, particularly when they are overwhelmed by an 
emergency situation. Local officials believe the incident 
reporting and tracking function of 311 provides a tool for 
analyzing patterns of seemingly disconnected entities.
    It is my understand that the Department of Homeland 
Security has decided not to deem 311 systems as an eligible 
expense under Federal Homeland Security grants. Do you believe 
that this is a matter of law, or of administrative 
interpretation, and would you be open to amending the decision?
    Mr. Foresman. Congressman, let me address two points, so 
that we are clear when we talk about need versus want; and I 
would like to address that first.
    Part of what I was offering to you was, when I was in the 
fire service, we had to decide when we were replacing a piece 
of apparatus, did we want to replace the pumper with a pumper, 
which is what we needed, or did we want to replace it with an 
aerial apparatus, which is what we wanted? And so part of this 
goes back to being able to define what is the necessary piece 
of it.
    The second part of that that I would offer to you is, the 
$3 billion in competitive grants--and you have raised an 
interesting issue here, and I want to go back and look because 
I think it will help all of us as we try to inform this on down 
the line.
    Of the $3 billion in applications, one of the things that I 
think it would be interesting for all of us to look at is, how 
much of it was deemed to be ineligible in terms of program 
guidelines? How much of it--you know, for those that didn't get 
it, what was the reason for not getting it--was because the 
peer review process, which you and I both agree is a good 
process, had concluded that there was not a justifiable need?
    We will try to do that.
    Mr. Pascrell. We made a conscious decision in the very 
beginning when we started off with 15 or 16 categories of fire 
grant to lower, to shrink it to seven or eight so that we could 
get more dollars to more communities throughout the United 
States. Isn't that the case?
    Mr. Foresman. Well, I don't know, but I want to go back and 
look and get that data back to you.
    With regard to 311, I don't have the specific details, 
Congressman, but if it is all right with you, we will provide 
you with a written response as a follow-up.
    Mr. Pascrell. I appreciate that. And also would you give 
this committee a detailed accounting of the $2 billion in 
interoperability that has gone out so far? And I would love you 
to send this to every member of the committee.
    Can you do that within the next week?
    Mr. Foresman. Congressman, I will not promise it within the 
next week. That figure comes from the crosswalk of all of the 
grant programs where State and local spending plans have said 
they are going to use it for interoperability.
    If we have got a spreadsheet that will allow us to press it 
out in a week, we will do it.
    But one thing I have told the chairman, and I will 
reiterate to you, we need to be responsive to the Congress. I 
firmly understand that. But I also want to make sure that when 
we are responsive, I put realistic time demands on our people 
so that we meet your expectations and don't fall below.
    Mr. Pascrell. Two weeks, 2 weeks.
    Mr. Reichert. Can you give us a time when you might have 
that for us?
    Mr. Foresman. I know the good folks behind me are going to 
write me a note here in a moment and tell you when you can 
reasonably expect to have that.
    Mr. Pascrell. Let's compromise on a month.
    Mr. Foresman. All right, sir, and if I beat your 
expectations, I hope you will be happy.
    Mr. Pascrell. If I could have one other question.
    Mr. Reichert. Very quickly.
    I can come back to you. The gentleman's time has expired.
    Mr. Pearce.
    Mr. Pearce. Thank you. I just hate to pick on this 
interoperability. But we are giving out grants across the 
Nation, and is there any--technically any equipment that allows 
us to be interoperable? I need the short answer.
    Mr. Foresman. I understand.
    There is plenty of equipment that allows for 
interoperability, but a large part of this is getting a viable 
national standard in place which drives the private sector to 
ensure interoperability across the--
    Mr. Pearce. Same thing we have in computers. You would have 
department with different computers that could not communicate, 
different software?
    Mr Foresman. Yes, sir.
    Mr. Pearce. Why are we giving out billions when we really 
don't have a national standard?
    Mr. Foresman. Well, the billions are going out to States 
and communities. One of the requirements for how they use these 
dollars for interoperability is to have a plan that shows how 
it will achieve interoperability.
    Let me give you an example here in the National Capital 
Region. The vast majority of all of the public safety agencies 
are on 800 systems, 800 megahertz systems. And what they had to 
do in their interoperability plan is show how, what the law 
enforcement and fire services are going to do to ensure that 
interoperability. That is the type of planning that comes 
before the application of dollars to technical solutions.
    Mr. Pearce. I know that--again going back to that fire in 
our local area--they had very expensive radio systems that were 
costing maybe $50,000 apiece. It was an exorbitant amount. And, 
again, the volunteer fire departments didn't have them. But the 
only ones that could communicate, really, were the volunteers 
with $200 radios.
    I am telling you, if we are not going back and checking 
with these departments to find out how that those billions are 
being spent, we are just pouring that money out of its boot.
    You had mentioned that threat vulnerability and 
consequences is the measurement formula for risk-based. Is that 
the formula for both UASI and the SHSGP?
    Mr. Foresman. Yes, sir. Part of what we are trying to do in 
the Department is to make sure that we have got a wide range of 
assessment methodologies that we use for infrastructure 
protection, for grant funding, for biomedical readiness; and we 
are trying to ensure that level of consistency between all of 
those assessment methodologies.
    Mr. Pearce. So we are using about the same measurement, 
same formula, to determine where the grants go under both 
programs, the State Homeland Security Grant Program and the 
UASI?
    Mr. Foresman. Congressman, we are not fully there, and I 
guess--let me caveat it this way.
    We want to get to the point of where we have got some 
reasonable measures so that when someone asks the question 
about why is X jurisdiction or X State getting this amount of 
money versus another one, that we have full visibility and 
transparency. And we are currently doing an in-house review of 
these risk assetsment methodologies and these funding 
methodologies.
    Mr. Pearce. With all respect to our constituents from large 
States, the reason that we had such a fight in this committee 
is because risk is, in the end, going to come down to 
population in the minds of many of the people in Washington. 
And we have got the risk assessment to include many different 
factors for the SHSGP or whatever, the State Homeland Security 
Grant Program. But what I am hearing you say is that basically 
we are going to use the same threat vulnerability and 
consequence.
    And having looked at the programs that--the actual cities 
and programs that had gotten through the system to be counted 
as high-risk areas under the UASI, I have deep concerns that 
all the money is again going to go to rural areas and border 
districts like mine where we have got significant 
vulnerabilities and significant threats, but not a very high 
population base. We are going to be sitting out on the edge and 
so--
    Mr. Foresman. Congressman, let me stress--and if I did not 
communicate it effectively, I apologize. Just because you are 
rural doesn't mean you don't have a risk, and this is what we 
are trying to make sure of, that we have a systematic approach 
that takes into account--for instance, the hurricane on the 
gulf coast was a good example.
    There are certain elements of infrastructure that are not 
in major metropolitan areas, but if you lose that 
infrastructure, it has not only an immediate impact on the 
area, but it has a dramatic national impact. And population 
density was, at one time, one of the first and foremost points 
that we used in it.
    But we are getting better. Population is a factor, but it 
is not going to be the only factor.
    Mr. Pearce. I have seen a list of communities that 
qualified under the UASI. Do you have such a list for the 
SHSGP?
    Mr. Foresman. In terms of how they rank?
    Mr. Pearce. Sure, of who--where you are going to dedicate 
the 83--is it 83 billion we are putting into that?
    Yes, 83 million into the State Homeland Security Grant 
Program. What are the parameters? I have already seen the 
parameters for the other program.
    Mr. Foresman. Congressman, what I would like to do is bring 
back to you a written response on that one, if that is all 
right for you, so that I make sure I get it right.
    Because here is one of the concerns that I have addressed 
with the chairman: We have got to be very clear and concise as 
we communicate these things to you, because you need to answer 
the questions for your constituents.
    And I would prefer on this particular one to provide you a 
written response so we can make sure it is clear and 
articulate, so you can answer the mail back home, if that is 
all right with you.
    Mr. Pearce. I would appreciate, but I would express the 
same thing Mr. Pascrell did. I am not sure it was you, but I 
think it was you and I were discussing last time you were here 
another deputy level, where the Homeland Security Department 
was on the certified communities program that we had been 
suggesting for almost a year, which would maybe--maybe you 
expressed a concern of how do we get training? How do we get 
the next generation of officials ready?
    Those were your words and your concerns, and we addressed 
that almost a year and a half ago with a written proposal to 
the ODP, and it just died over there. And you had mentioned you 
are pretty unfamiliar with it. We have never heard anything, 
and that has been months, months ago.
    And so, yes, I don't mind you getting back to me, but 
sometimes I get a little nervous, like Mr. Pascrell and the 
chairman.
    Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I had an opportunity to travel to Louisiana with the 
leadership this weekend, and three things, three complaints or 
three things that kept coming up: issues of FEMA, 
interoperability and the incident command.
    Are you--you must have been asked this before, but just so 
that I understand. Because I know some of my colleagues would 
like to have FEMA totally outside of the Department of Homeland 
Security--I am not necessarily there--but are you comfortable 
with FEMA not being a part of the Preparedness Directorate?
    Because in my experience with FEMA, which I think I have 
had a fair amount, preparedness is a part of what FEMA used to 
do; and we need that continuum between preparedness, response 
and recovery for it to work well.
    Mr. Foresman. Congresswoman, I am 25 years in this 
business. I absolutely think we have got the right 
organizational structure. And having watched all of the 
reorganization that went on with the creation of the Department 
and what we have done with 2SR, which I think has further 
enhanced what Congress asked us to do with the creation of the 
Department, I absolutely think we have the optimal 
organizational structure.
    It is less important about where the boxes sit on the chart 
and more important about making sure that we have a common 
culture, a common vision, a common synchronization of our 
preparedness.
    Mrs. Christensen. Are we getting there? Are we getting to 
that?
    Mr. Foresman. We are getting there, Congresswoman, but I 
will tell you right here and right now that we are not where we 
need to be. And I think the Secretary would acknowledge that as 
well, because from our standpoint, Katrina gave us a lot of 
great lessons learned. It was a tragic event, but we are going 
to take those lessons learned and we are going to apply them to 
what we do not only in FEMA and in the Coast Guard, but what we 
do with our partners at DOD and HHS, our State and local 
partners.
    Our national plan review is going on right now. We are not 
getting all, you know, great news back from the State and local 
level in terms of their readiness for catastrophic events. And 
so we are talking about having an overarching approach to 
preparedness that will allow us to infuse and link together in 
a much stronger fashion than ever before.
    And I have worked with FEMA for more than 20 years. FEMA 
has the potential to reach its stellar level of performance 
that I know the men and women over there are capable of.
    Mrs. Christensen. You also talked about 
``interoperability,'' meaning different things to different 
people.
    Does the Department have a definition for local and States 
to try to reach to?
    Mr. Foresman. We have provided definitional terms and 
requirements associated with the grant guidance, but I think we 
can do more.
    I think we can provide additional clarity in what are the 
minimum expectations, that if we are going to provide Federal 
dollars that Congress appropriates for these purposes, we need 
to make sure that we are giving them clear expectations of what 
we are looking for as far as the back-end solution.
    Mrs. Christensen. I think--I agree that everyone in 
different parts of the country thinks different things and 
approaches it differently, you know, that is so critical to 
being able to be prepared and respond.
    You said several times that incident command rests in the 
Department of Homeland Security. And incident command did not 
operate in Katrina. What have you done in your directorate to 
strengthen that?
    Incident command is something I was trained in a long time 
ago, long before I thought I was even going to get to be here. 
So it is not anything new.
    It fell apart. What has been done to strengthen that now?
    Mr. Foresman. Congresswoman, I would separate--you know, 
DHS's role is to be the domestic incident manager.
    Mrs. Christensen. Incident manager?
    Mr. Foresman. The incident manager.
    The incident commander was the individual who was down on 
the specific site or in a particular jurisdiction, as you and I 
both know from years of experience in this.
    Mrs. Christensen. What is the difference? That may be 
confusing to the people on the ground.
    Mr. Foresman. I think, at the end of the day, you have 
asked a legitimate question: Are we going to be better prepared 
for the next event than we were for this one?
    Absolutely, we will.
    We did not have a complete failure of our incident 
management capabilities associated with Katrina. We had very 
successful evacuations in parts of Louisiana--not necessarily 
New Orleans, but there were parts of Louisiana that did well.
    Mississippi, Alabama did well, the Federal interaction with 
the State and locals.
    Mrs. Christensen. Was that in spite of the Department or 
because of the Department?
    Mr. Foresman. Well, I don't know, because I wasn't in the 
Department. But what I am committed to doing is to taking the 
lessons learned from Katrina, those that are provided through 
the White House, those that are provided by Congress and 
others, because the States are doing them, any number of 
organizations are doing them. We are going to amalgamate all of 
those recommendations.
    And I will tell you, I started off here earlier saying, 
look, the same lessons we learned with Katrina are the lessons 
that we learned with Andrew in many cases. And it tells us we 
didn't make systemic improvements to fix them, and we have to 
absolutely do that because that is what our citizens expect and 
deserve.
    Mrs. Christensen. Thank you.
    Mr. Reichert. Thank you.
    Mr. Pascrell.
    Mr. Pascrell. Mr. Secretary, would you support spending 
Homeland Security money based on the standards and competitive 
basis of the Fire Act and COPS program? Do you see yourself 
supporting that in the future?
    Mr. Foresman. Congressman, I can't give you an answer, yes 
or no, but here is what I will tell you: that I am always 
committed to looking at what are the most effective processes 
for how we apply dollars to address the critical issues.
    And, you know, certainly I would be willing to sit down and 
talk about the pros and cons with you.
    Mr. Pascrell. Do you know of any more productive process 
that was used in the COPS program and fire departments; and if 
so, would you tell me what it is?
    Mr. Foresman. I don't know right off the top of my head, 
but given the opportunity to think through it, one of the 
exceptional opportunities I have had over 20 years is to deal 
with a lot of Federal grant programs.
    There were some grant programs back in the early 1990s, 
late 1980s, that worked very well; and I would certainly be 
willing to sit down, Congressman, come in and discuss it with 
you, because if there is a better way to do business, we are 
always looking for better ways to do business.
    Mr. Pascrell. Just a final comment, Mr. Chairman.
    I think the best way not to waste money is to have 
stakeholders involved in the process early on, those people 
that are out there on a daily basis working with us.
    We already talked about port security, whether we are 
talking about communications, whether we are talking about 
first responders, I think intelligence. I think what is so 
important is that the stakeholders be involved early on by 
governmental agencies, rather than waiting for the--at the end 
to get their input and get their reactions to what we are 
coming up with. That doesn't work.
    Mr. Foresman. Congressman, you have my personal commitment 
that we will engage the stakeholders actively and often. And as 
I said earlier, that is one of the reasons why they will be 
here day after tomorrow, because we don't want to get way down 
the road with a whole bunch of solutions with Katrina that 
don't represent stakeholder input.
    Mr. Pascrell. We are going to have a meeting with the 
Secretary early tomorrow morning. We are going to bring this up 
again.
    And I thank you for your patience today. I thank you for 
your forthrightness, and I want you to know I have deep respect 
for your history.
    But this budget is dead on arrival. So we will be very 
aggressive on both sides of the aisle, but we want to work 
together to demonstrate to the American people that we can rise 
above the situation.
    I thank you.
    Mr. Foresman. Congressman, thank you. And you have my 
personal commitment that we are going to work closely to make 
things better and more effective.
    Mr. Reichert. You made it.
    Thank you for being here, and we just so much appreciate 
you taking on this responsibility and the experience that you 
bring.
    I just have a couple of comments, too.
    Just thinking back on my law enforcement career, and I know 
thinking back in your career, how much things have changed. And 
people expect things to happen now, today, right now; and, yes, 
we want progress made and, yes, we want to move forward and, 
yes, we want to be prepared for the next tragedy that--whether 
it is manmade or human made, the next extreme event that may 
come into this country.
    But I think we also have to remember how far we have come 
and how much progress we have already made. If we don't 
remember that, I think we kind of tend to lose our 
encouragement and our excitement about looking ahead to the 
future and the things that we have yet to accomplish, that we 
know we can accomplish.
    And I think back to my days when I started as a police 
officer early on in the 1970s, and what ``incident command'' 
meant then in the 1970s, what ``interoperability'' or 
``operability'' meant then.
    What ``incident command'' means to law enforcement is a 
totally different definition than what it means to the fire 
fighters who are the leaders in really defining and leading the 
way as to what incident command and incident management really 
are.
    And what has changed, too, when I was the squad commander 
in the mid-1990s, and what incident command was and what it 
means today, so and the definition of preparedness, and what it 
meant prior to September 11 and what it now means today.
    It means a lot more. It includes prevention, things that we 
hadn't thought about pre-September 11, pre-Katrina.
    So you have a great task in front of you. And we are here 
to help you. We have a lot of the same concerns that you have. 
And we want to be here to assist you in any way that we can.
    We have asked you for some more information. We look 
forward to receiving that information.
    And I have one little statement to read at the end that we 
are always required to read. And the members of the committee 
may have some additional questions for the witness; and we will 
ask you to respond to those in writing. The hearing record will 
be open for 10 days, and without objection, this committee 
hearing is adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                             For the Record

 Questions from Representative Mike Rogers for Under Secretary George 
                                Foresman

    Question: 1. To what extent do you view Homeland Security education 
as a key contributor to building national preparedness and where does 
this initiative rank in your responsibilities as Under Secretary?
    Response: Homeland Security education is extremely important and 
applies equally to the Federal, State, local, tribal and territorial 
workforces. I believe that homeland security education is a ``key 
contributor'' in building national preparedness and should be at all 
stages of development for the Department's Federal workforce, as well 
as for the State, local, tribal and territorial workforces. This 
initiative ranks very high in my responsibilities as the Under 
Secretary for Preparedness.

    Question: 2. As opportunities arise to provide education in the 
National Capital Region, should the Under Secretary for Preparedness 
play an important role in guiding that effort?
    Response: Yes. The Preparedness Directorate is putting into place 
training and education programs for national preparedness. The 
Directorate is working with training and education experts in its 
component offices (including the Office of Grants and Training and the 
U.S. Fire Administration), with the Department's Homeland Security 
Institute and newly created Office of the Chief Learning Officer, and 
with other Departmental training and education assets (including the 
Federal Law Enforcement Training Center (FLETC), the Emergency 
Management Institute (EMI) and the Center for Homeland Defense and 
Security located at the Naval Post Graduate School). The Office of 
National Capital Region Coordination will continue to assess and 
advocate for resources, information, research, and technical support to 
assist the efforts of State, local, and regional authorities in the 
National Capital Region.

    Question: 3. Does the Department of Homeland Security currently 
sponsor a Masters degree curriculum in Homeland Security which could be 
effectively leveraged to serve the National Capital Region and be 
delivered by universities already conducting such DHS-approved 
curricula?
    Response: Yes. Through the Preparedness Directorate's Office of 
Grants and Training (G&T), the Department sponsors a fully accredited 
Master's degree program in Homeland Security. This Master's program is 
provided by the Center for Homeland Defense and Security, located at 
the Naval Post Graduate School. This program consists of curricula 
vetted and approved for delivery by G&T, part of the requirements for 
receiving a grant to fund this program. The curricula could be 
incorporated or leveraged by another university, or as part of a larger 
consortium of training and education providers in order to serve the 
National Capital Region.

    Question: 4. How do you plan to implement the recommendations in 
the White House ``Lessons Learned'' report to establish a Homeland 
Security University?
    Response: Any Department of Homeland Security (DHS) institution of 
higher learning would cut across the entire Department. Therefore, it 
should be the combined responsibility of myself as the Under Secretary 
for Preparedness and the Department's Secretary and Deputy Secretary. 
Day-to-day oversight of a Homeland Security University could be 
maintained by either the Preparedness Directorate or by the 
Department's Chief Learning Officer.
    The Preparedness Directorate is already developing a training and 
educational system that could serve to address portions of the 
education system called for by the White House ``Lessons Learned'' 
report. For instance, the Naval Postgraduate School's (NPS) Center for 
Homeland Defense and Security conducts a wide range of programs focused 
on assisting current and future leaders in Homeland Security to develop 
the policies, strategies, programs and organizational elements needed 
to defeat terrorism in the United States. NPS offers:

        <bullet> A fully accredited Master's degree in Homeland 
        Security offered on a part-time basis (the first class 
        graduated in June 2004);
        <bullet> Mobile Education Team training seminars for Governors 
        and other senior Homeland Security leaders; and
        <bullet> Executive Education seminars on priority topics in 
        Homeland Security, such as Intelligence and Fusion Centers, 
        Public Information/Fear Management, Public Health.
    It is imperative that Federal, State, local, and tribal officials 
are educated in consistent curricula that ensures shared understanding 
of homeland security missions, the differing responsibilities of the 
Federal government, and its State, local, and tribal partners, and 
strategic planning and policy development practices. To meet the unique 
challenges of homeland security, professionals at DHS and throughout 
the community can benefit from higher-education opportunities. Such 
exposure can enhance their performance, ensure they understand broad 
policy contexts, and further their careers. DHS and agency-wide 
learning plans seek to fulfill these needs. DHS is already making 
higher education available to the workforce--using a diverse set of 
providers--to develop subject-matter expertise, critical thinking, and 
leadership skills for today and into the future.

             Questions from Representative Bennie Thompson

Interoperable Communication
    Question: 1. Can you provide the Committee a detailed accounting of 
the $2 billion you state has been dispensed for interoperable 
communications? In your detailed account, please identify whether the 
grant dollars came from the Department of Homeland Security, Department 
of Justice, or other federal agencies.
    Response: Please see the attached report State of Interoperable 
Communications: DHS Funded Activities, Fiscal Years 2003-2005, as well 
as the attached charts identifying Interoperable Communications 
spending for FY 2004 and FY 2005. [The information is maintained in the 
committee's file.]

3-1-1
    The Department of Homeland Security deemed that 3-1-1 systems were 
not eligible for homeland security grants.
    Question: 1. Can you please provide the legal or administrative 
basis for the decision?
    Response: Homeland Security Grant Program (HSGP) funds are 
appropriated for the purpose of assisting state and local governments 
in building their capacities to prevent, protect, respond to, and 
recover from major events, including acts of terrorism. In Fiscal Year 
2006, DHS has allowed grantees to leverage HSGP funds to address an 
``all-hazards'' approach to emergency planning, response, and recovery. 
However, 3-1-1 systems do not fall under the statutory umbrella of the 
authorizing language of the HSGP, and therefore are not deemed an 
allowable cost under the HSGP.

    Question: 2. Is the Department willing to review its position on 3-
1-1?
    Response: 3-1-1 systems provide access to non-emergency services, 
and are intended to help divert routine inquiries and non-emergency 
concerns or complaints from the public away from the 9-1-1 emergency 
system. Examples of calls intended for 3-1-1 systems include issues 
such as debris in roadway, noise complaints, non-working street lights, 
etc. DHS continues to believe that purchase of such systems is 
considered to be outside the scope of the Homeland Security Grant 
Program as it does not enhance a jurisdiction?s ability to carry out 
any of the mission areas for which Homeland Security Grant Program 
funding is provided.

Tracking Grant Funding
    When you worked for the State of Virginia, you were a member of 
Secretary Ridge's special task force established to find out where 
federal funding was, and why local governments were concerned they were 
not receiving funding. The Task Force released a report in June 2004 
recommending that ``The Department of Homeland Security, in 
coordination with state, county, municipal, and tribal governments, 
develop an automated grant tracking system that would allow for the 
real time tracking of the distribution and use of homeland security-
related funds.''
    Question: 1. Can you please tell me if this new grant tracking 
system has been deployed?
    Question: 2. If so, what were the findings of the Department with 
regard to homeland security funds?
    Response: In 2005, DHS formed a Task Force consisting of key DHS 
personnel responsible for the management and oversight of the 
Department's grant program administration. The Task Force, operating 
under the leadership of the DHS Under Secretary for Management, was 
tasked to identify and explore DHS' options for acquiring an 
enterprise-wide solution to more effectively and efficiently manage DHS 
grant programs and resources. The Task Force unanimously agreed that 
the business requirements and operational processes associated with 
disaster grants was vastly different from those associated with non-
disaster grants and concluded that a single system could not reasonably 
meet the needs of both types of grants.
    As a result, the Task Force focused its efforts on developing a 
comprehensive set of system requirements and applicable workflows to 
accommodate the identification of a non-disaster grant management 
solution for DHS. Ultimately, the implementation of a non-disaster 
system would position DHS to achieve two major goals: (1) consolidate 
the management of all homeland security non-disaster grants onto a 
single, integrated, lifecycle system and (2) facilitate the real time 
tracking, collection, analysis, and use of data pertaining to the 
distribution of billions of dollars in homeland security grant 
resources and assets.
    As of June 2006, the Task Force is nearing completion of its 
requirements analysis and is working with OMB and the eGov Initiative 
to identify an internal solution and/or grants management service 
provider to manage its non-disaster grants by the end of the fiscal 
year.

Homeland Security Funds and Tribal Government
    Question: 1. What effort is your office making to track and monitor 
the delivery of federal homeland security funds to tribal governments?
    Response: All grantees are required to submit to DHS a report 
regarding their planned and prioritized expenditure of grant funds 
within 60 days of receipt of award, and an updated report semi-annually 
for the life of the grant. In addition, all grant recipients are 
subject to review, monitoring and audit at all times. Preparedness 
Officers within the Office of Grants and Training's (G&T) Preparedness 
Programs Division (PPD) provide oversight of the grant programs and 
monitor the progress made toward accomplishment of identified homeland 
security goals and objectives by of all of the 56 states and 
territories. These Preparedness Officers conduct regular administrative 
and programmatic reviews through frequent office monitoring efforts and 
site visits to ensure Native American communities are equitably 
targeted for funding and support appropriate for the identified threats 
and risks. The Preparedness Officers coordinate directly with senior 
State officials to address questions or concerns when they arise. The 
G&T Office of Grant Operations also conducts ongoing fiscal monitoring 
of grantees.
    Additionally, PPD has a Preparedness Officer specifically assigned 
to coordinate and liaise with tribal governments and communities in an 
effort to ensure the effective delivery of Homeland Security programs, 
technical assistance support, and funds to tribal communities. To 
ensure full recognition of tribal needs the G&T/PPD Tribal Liaison 
works directly with the other Preparedness Officers as well as State, 
local and tribal governments to ensure the threats and risks faced by 
tribal communities are reduced and that efforts among State, regional 
and tribal jurisdictions are fully collaborative and coordinated.

    Question: 2. What outreach efforts have your office developed to 
communicate to tribal nations about availability of homeland security 
grants?
    Response: The Office of Grants and Training's (G&T) Preparedness 
Programs Division (PPD) Native American Liaison has attended several 
tribal training events and conferences and has made presentations 
regarding DHS programs and services at numerous events such as the 
National Native American Law Enforcement Conference in Las Vegas, the 
Annual Tribal Hazmat Conference in Montana, the FBI/ICE Tribal Gaming 
Enforcement Conference in Phoenix, the FEMA Emergency Management 
Training for Tribal Leaders.
    Preparedness Officers have also met with tribal governments and 
representatives throughout the Country and provided focused 
communication dedicated to tribal leaders. PPD also reaches out to 
Tribal leaders and encourages their full participation in every 
Conference and training opportunity presented by our offices.
    PPD also coordinates regularly with the DHS Headquarters Tribal 
Liaison, other federal partners and a number of Native American 
Associations such as the National Congress of American Indians, 
National Native American Law Enforcement Association, and the Southern 
and Eastern Tribal Association. Among the Department's goals is 
outreach to tribal emergency managers and community leaders through 
their own conferences and training venues to ensure the maximum 
exposure of every tribal emergency response and management discipline 
to DHS programs.
    Through these partnerships PPD has led the way in the creation of a 
number of coalitions and initiatives such as the Regional Four Corners 
Homeland Security Coalition (R4C) which is comprised of the States of 
Arizona, Colorado, New Mexico and Arizona in partnership with the 
Navajo, Hopi, Jiccarila Apache, Ute Mountain Ute, Southern Ute and 
other tribes. This group is dedicated to fully integrated 
communications, information sharing and planning operations. Several 
States, including North Dakota and Minnesota have requested support 
from PPD in coordinating similar multi-disciplinary and multi-
jurisdictional opportunities within their respective boundaries.
    PPD also looks forward to any suggestions or opportunities to 
provide for the maximum exposure of DHS Programs and funding 
opportunities as well as those available from other Federal partners 
for all tribal communities.

Intergovernmental Coordination
    In your written testimony, you stated that ``the information flow 
from DHS to state and local entities. . . .has dramatically improved.'' 
However, a survey jointly conducted in the fall of 2005 by the National 
Association of State Chief Information Officers (NASCIO) and the 
Metropolitan Information Exchange (MIX), suggests the Department is 
falling short in fulfilling its basic obligations to state and local 
governments regarding the issue of cyber security.

    Question: 1. Would you please elaborate on what specific 
improvements the Department has made in securing our nation's cyber 
assets and describe whether the Department of Homeland Security has 
taken sufficient steps and set up quality control procedures to ensure 
that government-wide coordination, particularly between DHS and state 
governments, is improving?
    Response: The Department of Homeland Security (DHS) appreciates the 
opportunity to provide additional information about the Department's 
intergovernmental coordination and coordination with State and local 
governments, specifically with respect to our efforts to secure our 
Nation's cyber assets. In this context, we would like to note the 
Department's response to the report from the House Committee on 
Homeland Security ``Department of Homeland Security: Falling Short in 
Securing Cyberspace on the State and Local Level,'' which provides 
information about the Department's cyber security activities and 
programs while addressing many of the concerns raised in the National 
Association of State Chief Information Officers (NASCIO) and the 
Metropolitan Information Exchange (MIX) survey.
    DHS would like to highlight a number of the activities and programs 
that were raised in the Department's response, which demonstrate our 
efforts to secure our Nation's cyber assets in coordination with other 
government entities.
    First, in the context of the National Infrastructure Protection 
Plan (NIPP), which the Office of Infrastructure Protection developed as 
a guide for addressing Critical Infrastructure/Key Resources (CI/KR) 
protection, the National Cyber Security Division (NCSD) has robust 
collaboration with other government entities. In this context, NCSD has 
two roles. One role is to perform the duties as the Sector Specific 
Agency (SSA) for the Information Technology (IT) sector. As such, NCSD 
chairs the IT Government Coordinating Council (GCC), which is comprised 
of government entities with an interest in the security of the IT 
sector. Among other government agencies with responsibility for each of 
the seventeen sectors, NASCIO and MIX are both participants in the IT 
GCC and provide a State and local government perspective on IT sector-
related critical infrastructure protection efforts and initiatives. 
NCSD, together with the IT GCC and the IT Sector Coordinating Council, 
comprised of private sector representatives, will develop the IT Sector 
Specific Plan (SSP). The SSP will address how the respective sectors 
will work to reduce the risks to their sector's CI/KR. NCSD's second 
role with respect to the NIPP is to assist SSAs in the development of 
the cyber aspects of their SSPs. For example, NCSD's cyber security 
checklist build on SSP guidance provided by the National Infrastructure 
Protection Plan Program Management Office and provides SSAs with 
guidance concerning the types of cyber security concepts that should be 
included in each chapter of their SSP's. Summaries describing cyber 
aspects of each chapter of the SSP also provide additional expertise to 
SSAs. NCSD is also developing a cyber asset identification methodology 
that SSAs can use to identify cyber assets should they not have their 
own approach. NCSD is in the initial development stages and will be 
piloting the methodology this winter. Finally, when contacted by SSAs, 
NCSD will review draft SSPs and provide feedback on formal drafts and 
final SSP's.
    DHS also engages with State information officers and technology 
professionals to share information related to each State's cyber 
security readiness and resilience through robust collaboration with the 
Multi-State Information Sharing and Analysis Center (MS-ISAC). The MS-
ISAC serves as a conduit between and among all States and DHS. Among 
other collaborative initiatives to share information and respond to 
cyber incidents, DHS and the MS-ISAC are working together to initiate 
greater outreach to local governments. As such, we are developing a 
local government cyber security guide that includes best practices and 
actionable steps to help improve the cyber security posture of local 
governments.
    Another important mechanism for collaboration with government 
entities is the Government Forum of Incident Responders and Security 
Teams (GFIRST), a coalition of cyber incident response teams from the 
federal agencies organized by NCSD's U.S. Computer Emergency Readiness 
Team (US-CERT). US-CERT produces guidance about cyber issues and 
vulnerabilities that are specifically distributed to this community, 
and works with the GFIRST to combat cyber attacks against federal 
government systems. GFIRST just held its Second Annual Conference, 
which brought together cyber incident responders from Federal agencies, 
State government, and the private sector, Chief Information Security 
Officers, cyber security vendors, and law enforcement personnel 
supporting cyber security issues.
    The MS-ISAC has a compartment of the US-CERT secure portal, which 
enables information sharing between US-CERT and the States, and the MS-
ISAC Chair is liaison to the GFIRST community to ensure information 
flow.
    Finally, DHS has undertaken an initiative to implement the NET 
Guard provision of the Homeland Security Act. As such, DHS has 
conducted significant outreach activities to engage state and local 
government officials and facilitate a dialogue about their needs and 
requirements with regard to preparedness and response to an incident 
that impacts critical IT. Through this process, DHS has had an 
opportunity to identify additional needs and potential for other areas 
for collaboration with State and local governments and DHS plans to 
leverage that for future State and local engagement.

    Question: 2. Would you consider the establishment of a DHS review 
board, made up of state and local information officers, to be a 
valuable exercise to promote the protection of our nation's cyberspace?
    Response: The Department of Homeland Security (DHS) would welcome 
the opportunity to work with State and local Chief Information Security 
Officers and Chief Information Officers, as they may choose to self-
organize, in order to further collaboration with these stakeholder 
groups to promote greater national cyber security. We do not presuppose 
the roles and responsibilities of a DHS ``review board'' and can not 
comment on the nature of such a mechanism for engagement. DHS already 
has a collaborative relationship with the National Association of State 
Chief Information Officers and the Metropolitan Information Exchange.

Cyber Storm Exercise
    The Department of Homeland Security recently staged its first Cyber 
Storm exercise, a mock government-led cyber attack, to test the 
emergency defenses of both government agencies and leading private 
sector organizations. It has been brought to my attention that only one 
state government was directly included in this exercise and no local 
governments whatsoever. It is also my understanding that most emergency 
services are delivered by state and local authorities.

    Question: 1. Given that Homeland Security presidential directive 
(HSPD)-7 specifically identifies the need for state and local 
government to ``maintain order'' and ``deliver minimum essential public 
services'' as well as ``emergency services,'' does the Department 
intend to conduct a Cyber Storm exercise that would help state and 
local governments test these capabilities? If so, when might you 
envision such an exercise?
    Response: The Department of Homeland Security (DHS) appreciates 
this opportunity to elaborate on State participation in Cyber Storm, 
the first government sponsored national-level exercise, as well as 
future efforts with both State and local governments to enhance cyber 
preparedness and incident response capabilities.
    During Cyber Storm eight States participated at varying levels: 
three States, New York, Michigan and Montana, participated as full 
players during the exercise, Washington assisted in the main exercise 
control simulating State/local agencies and other States, and four 
other States, Nebraska, North Carolina, South Carolina and Texas, 
augmented the Multi-State Information Sharing and Analysis Center (MS-
ISAC), which was also an exercise player. The Department's National 
Cyber Security Division (NCSD) also recently attended the MS-ISAC 2006 
Conference, which was attended by 43 states, in order to share exercise 
lessons learned and support MS-ISAC planning efforts for future cyber-
focused exercises.
    In addition to State participation during Cyber Storm, our exercise 
team enlisted the expertise of a major academic institution which is 
currently a DHS grantee for the conduct of cyber exercises with local 
governments. The intent of their involvement is to prepare for 
potential participation by local governments in Cyber Storm II, 
currently planned for 2008. DHS believes this approach will ensure that 
the Department is prepared to provide the best learning environment for 
future participation by both the cyber incident response organizations, 
as well as general local government including first responders.
    Further, NCSD will play a key role in the planning and execution of 
cyber aspects for state participants in the Top Official 4 (TOPOFF 4) 
exercise. Cyber related activities for the three State/territorial 
venues (Arizona, Oregon and Guam) will include the opportunity for a 
cyber specific tabletop exercise with state agencies, and the potential 
inclusion of cyber events within the full scale exercise.

    The Office of State and Local Government Coordination
    I understand that the President's FY2007 request for the Office of 
State and Local Government Coordination is $2.2M? In your written 
testimony you state that the funding will ``support our efforts to 
engage our state and local partners to better prepare our homeland.''

    Question: 1. Could you please elaborate on what programs will be 
funded under this initiative?
    Response: The $2.2 million funds the salaries and expenses for the 
full time Department of Homeland Security employees in the Office of 
State and Local Government Coordination (SLGC). These employees report 
directly to the Under Secretary for Preparedness and provide a direct 
communication channel with our stakeholders in the State, local and 
tribal governments.
    The outreach that SLGC provides is essential to ensuring constant 
and open communication with State and local officials. It serves to 
ensure that State and local officials are consistently engaged in DHS 
initiatives and are aware of all policy decisions that will affect 
their constituents and local priorities.

Federal Duties in Assisting State and Local Governments
    According to the National Strategy to Secure Cyberspace, the 
federal government has specific responsibilities to ``provide specific 
warning information and advice about appropriate protective measures 
and countermeasures to state and local organizations.'' However, the 
Homeland Security Information Network (HSIN), which according to a DHS 
press release, ``will result in more effective communications and more 
efficient responses to deter, detect, prevent, or respond to terrorist 
actions,'' has not been extended to the state Chief Information 
Security Officers.

    Question 1.: While I understand that the Department has made 
considerable progress in connecting Homeland Security advisors, 
governor's offices and emergency management agencies across the 
country, could you please detail whether you envision state Chief 
Information Security Officers having a role in the HSIN?
    Response: The States have an active role in the Homeland Security 
Information Network (HSIN), advisory groups. HSIN Program Office 
envisions that the State will make the appropriate choices with respect 
to membership within each of the State's advisory groups. The State's 
representation could clearly be the Chief Information Security Officer. 
However, that will be at the sole discretion of each State. When the 
HSIN deployment team visits the State, the Department requests the 
participation of the State senior operational and technical leadership.

Responses from the Honorable George W. Foresman for the Subcommittee on 
       Emergency Preparedness, Science, and Technology Questions*

                             March 8, 2006

The Honorable Dave Reichert (WA)
    1. Specific numbers on what percentage of the grant funds have been 
obligated
    Please see attached for the weekly funding fact sheets prepared by 
the Office of Grants and Training*

    2. IC funding breakdown
    Please see attached for data detailing the amount of funding that 
States dedicated to interoperable communications under the FY 2004 and 
FY 2005 State Homeland Security Grant Program, Law Enforcement 
Terrorism Prevention Program, and Urban Areas Security Initiative.

The Honorable Bill Pascrell, Jr. (NJ)
    1. Stats on Fire Act grant--applications and ineligible 
applications
    Please see attached for two PDF files detailing the application 
statistics for the AFG Program and the SAFER Program.

    2. Written response on whether 311 systems are eligible expenses 
under G&T grant programs
    Under current G&T program guidance, 311 systems are not an 
allowable expenditure. G&T allows for a wide range of items under the 
``Interoperable Communications Equipment'' category, such as computer 
aided dispatch (911 systems), video teleconferencing, and satellite 
data services. However, 311 systems are considered to be too general-
purpose in nature, without a clear nexus to use during a Chemical, 
Biological, Radiological, Nuclear or Explosive (CBRNE) event. The 
Department expects our state and local partners to share some of the 
responsibility of properly equipping emergency operations facilities.

The Honorable Bennie G. Thompson (MS)
    1. Copy of the current process/relationship between FEMA and the 
Preparedness Directorate in the event of another disaster, given that 
the MOU between Acting FEMA Director Paulison and the Preparedness 
Directorate is still in draft form
    A formalized MOU between FEMA and the preparedness Directorate is 
currently being negotiated, and is in draft form. This MOU will be 
provided as soon as it has been completed.

    2. Written copy of the how decisions are made in the firefighter 
grant programs (ie: guidance provided to peer review panelist)
    Please see hard copy information attached.

    3. Description of the peer review process
    Please see attached for a description of the peer review process.

The Honorable Mike Rogers (AL)
    1. Under Secretary Foresman promised to get back to Congressman 
Rogers after an evaluation of the mission statements of the various 
training facilities under the purview of the Directorate, specifically 
the Noble Training Center
    Under the provisions of Title V, ``Emergency Preparedness and 
Response,'' of the Homeland Security Act of 2002, Section 502, 
``Functions Transferred, (5), DHS/FEMA/USFA assumed management of the 
Noble Training Center, located in Anniston, Alabama, from the 
Department of Health and Human Services on March 1, 2003. Until Fort 
McClellan was closed in 1999, Noble was a 100-bed U.S. Army hospital. 
When Fort McCellan closed, Noble was given to DHHS to serve as public 
health training facility. FEMA's goal for Noble is to create a state-
of-the-art training center in DHS's training system and to enhance the 
training delivered at Noble to focus on preparing communities to deal 
with mass casualty incidents regardless of cause.
    For Fiscal Year 2003, USFA picked up a legacy training program from 
DHHS and maintained the training schedule that DHHS had set up. DHHS 
had allocated resources in the amount of $4.3 million and a staff of 2 
full-time personnel and 2 Vacant FTE for Noble. During FY 2003, USFA 
offered 7 courses for approximately 350 students.
    When USFA took over Noble, the facility and infrastructure were 
inadequate in many ways and required significant work during FY 2003 
and 2004. New phone and network systems were installed, training 
facilities were upgraded and dormitories for more than 150 students 
were cleaned up and made inhabitable. Contracts to provide facility 
support and security were awarded. USFA acquired state of the art 
medical training equipment including a computerized patient care 
simulator.
    In FY 2004, USFA staff created an exercise-based healthcare 
leadership curriculum for Noble. During FY 2004, USFA offered 19 
courses for 856 students. With the closing of the FEMA Conference and 
Training Center at Mt. Weather in September 2004, USFA/EMI classes that 
had been taught there were moved to Noble. In addition to hospital and 
public health courses, Radiological Emergency Response Operations 
courses, and training for FEMA disaster personnel. USFA/EMI also 
conducted training for Centers for Disease Control and Prevention 
personnel at Noble during FY 2004 and collaborated with CDP to offer 
the first joint Noble-CDP course in July 2004.
    In Fiscal Year 2005, with refurbished dormitories in service and a 
new exercise simulation and training area, EMI planned to deliver 80 
activities at Noble in FY 2006 for a total of 3,000 students. The 
Hurricane activity throughout the Guld coast resulted in all of the 
classes schedules during the 1st Quarter of FY 2006 being canceled and 
the Center became a housing center for evacuees until February 2006.
    FEMA's EMI and USFA's NFA are scheduling classes at Noble for FY 
2006 with the intention that the Noble Training Center will be a full 
time Training Center as resources will permit.

    The Noble Training center, while still under renovation as 
resources permit, currently houses:
        <bullet> Integrated Emergency Management Course (IEMC)Classroom
        <bullet> IEMC Policy Group Room
        <bullet> IEMC Coordination Group Room
        <bullet> IEMC Operations Group Room
        <bullet> IEMC Media Center
        <bullet> IEMC Exercise Control Room
        <bullet> Extra EOC Training Room
        <bullet> Computer/Telephone Room
        <bullet> Break Rooms
    The Noble Training Center provides the facility and support 
infrastructure to enhance the ability and capability of the USFA to 
carry out the USFA Mission.
    USFA Mission Statement:
    To reduce life and economic losses due to fire and related 
emergencies, through leadership, advocacy, coordination and support. We 
serve the Nation independently, in coordination with other Federal 
agencies, and in partnership with fire protection and emergency service 
communities. With a commitment to excellence, we provide public 
education, training, technology and data initiatives.

    2. Rep. Rogers would also like his office notified when the U/S 
visits the Center for Domestic Preparedness in Anniston, AL
    This trip did not take place as scheduled. Rep. Rogers was notified 
of the original itinerary and its cancellation.

    3. FY'07 Budget request numbers from the NDPC and CDP
    Please see attached for a chart detailing the funding request for 
the training, including the NDPC.*

The Honorable Bob Etheridge (NC)
    1. How many leadership positions are open at FEMA?
    FEMA currently has two Career leadership positions open and eight 
Career leadership positions ``in the process'' of being filled. ``In 
the process'' reflects recruitment activity ranging from: ``the vacancy 
announcement is created and ready to be advertised,'' to, ``a selection 
has been made and is pending OPM approval,'' There are also six Non-
Career (political appointment) positions open.

    2. How many individuals in leadership positions there for less than 
one year?
    FEMA currently has twelve leadership positions staffed by employees 
that have been in that specific leadership position for less than one 
year. Of those twelve, only four are actually new to FEMA, and all of 
the other eight have been a part of FEMA leadership for more than one 
year.

3. Is there ``pre-disaster'' funding for FEMA?
    The Pre-Disaster Mitigation (PDM) program was authorized by 
Sec. 203 of the Robert T. Stafford Disaster Assistance and Emergency 
Relief Act (Stafford Act), 42 USC. Funding for the program is provided 
through the National Pre-Disaster Mitigation Fund to assist States and 
local governments (to include Indian Tribal governments) in 
implementing cost-effective hazard mitigation activities that 
complement a comprehensive mitigation program.
    The PDM program will provide funds to states, territories, Indian 
trial governments, and communities for hazard mitigation planning and 
the implementation of mitigation projects prior to a disaster event. 
Funding these plans and projects reduces overall risks to the 
population and structures, while also reducing reliance on funding from 
actual disaster declarations. PDM grants are to be awarded on a 
competitive bases and without reference to state allocations, quotas, 
or other formula-based allocation of funds.

    The program was funded as follows:

------------------------------------------------------------------------------------------------------------------------------------------------
                    FY2003                               $150 M
------------------------------------------------------------------------
                    FY2004                               $150 M
------------------------------------------------------------------------
                    FY2005                               $150 M
------------------------------------------------------------------------
                    FY2006                               $150 M
------------------------------------------------------------------------


The Honorable Stevan Pearce (NM)
    1. How much of the grant funding has not bee drawn down?
    Please see attached for the weekly funding fact sheets prepared by 
the Office of Grants and Training*

The Honorable Michael McCaul (TX)
    1. Funding request for overall training, including the NDPC
    Please see attached for a chart detailing the funding request for 
the training, including the NDPC.*
    *Note: [Attachments are maintained in the committee's file.]

                                 <all>

</pre></body></html>
